No. 20-___

In The

Supreme Court of the United States
RODDIE MELVIN,
Petitioner,
v.
FEDERAL EXPRESS CORPORATION,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
Sachin S. Pandya
UNIVERSITY OF
CONNECTICUT
SCHOOL OF LAW
65 Elizabeth Street
Hartford, CT 06105

Amanda A. Farahany
Counsel of Record
Benjamin A. Stark
Grace A. Starling
Catherine A. Gavrilidis
Zachary T. Panter
BARRETT & FARAHANY, LLC
1100 Peachtree Street N.E.
Suite 500
Atlanta, GA 30309
(404) 214-0120
amanda@justiceatwork.com

Attorneys for Petitioner
February 8, 2021

i

QUESTION PRESENTED
In evaluating motions for summary judgment under
employment discrimination laws, such as the Age
Discrimination in Employment Act, must a court
examine all the evidence together to determine
whether a reasonable jury could find discrimination
by a preponderance of the evidence (as required by the
Seventh Circuit), or must the court apply a special
heightened standard of proof that separately
evaluates different pieces of evidence based on the
“stage” of the inquiry or on whether the evidence is
“direct” or “circumstantial” (as required by the
Eleventh Circuit, among others)?

ii

RELATED CASES
•

Melvin v. Federal Express Corporation, No.
1:17-cv-00789-CC, U.S. District Court for the
Northern District of Georgia.
Judgment
entered May 1, 2019.

•

Melvin v. Federal Express Corporation, No. 1911872, U.S. Court of Appeals for the Eleventh
Circuit. Judgment entered May 21, 2020.
Petition for en banc rehearing denied
September 10, 2020.

iii

TABLE OF CONTENTS
Page
QUESTION PRESENTED ........................................i
RELATED CASES ................................................... ii
TABLE OF APPENDICES ....................................... v
TABLE OF AUTHORITIES .................................... vi
DECISIONS BELOW ............................................... 1
STATEMENT OF JURISDICTION ......................... 1
PERTINENT STATUTORY PROVISIONS ............. 1
INTRODUCTION ..................................................... 3
STATEMENT OF THE CASE .................................. 5
REASONS FOR GRANTING THE WRIT ............... 9
I.

The Decision Below Conflicts with the
Seventh Circuit’s Rejection of Special
Heightened Standards of Proof in
Discrimination Cases ..................................... 9

II.

The Eleventh Circuit’s Decision Below
Conflicts with This Court’s Precedent......... 13
A. No Special Heightened Standards of
Proof Apply in Employment
Discrimination Cases.............................. 13
B. The Court Below Ignored this Court’s
Precedent by Applying a Special
Heightened Standard of Proof ................ 19

iv

III. This Petition Concerns an Important
Federal Question Because Special
Heightened Standards of Proof Distort
How Lower Courts Analyze
Discrimination Cases ................................... 22
CONCLUSION........................................................ 26

v

TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MAY 21, 2020 ..... 1a
APPENDIX B — ORDER OF THE
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION, DATED MAY 1, 2019 ..... 27a
APPENDIX C — FINAL REPORT AND
RECOMMENDATION OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION, DATED
JANUARY 28, 2019 .............................................. 59a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT,
DATED SEPTEMBER 10, 2020 ......................... 109a

vi

TABLE OF AUTHORITIES
Page(s)
Cases:
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986) .......................................... 4, 17
Aubrey v. Koppes,
975 F.3d 995 (10th Cir. 2020) .............................. 12
Bostock v. Clayton County,
140 S. Ct. 1731 (2020) .......................................... 25
Brady v. Office of Sergeant at Arms,
520 F.3d 490 (D.C. Cir. 2008) ........................ 12, 16
Chapter 7 Tr. v. Gate Gourmet,
683 F.3d 1249 (11th Cir. 2012) .............................. 8
Clark v. Champion National Sec., Inc.,
952 F.3d 570 (5th Cir. 2020) ................................ 12
Coleman v. Donahoe,
667 F.3d 835 (7th Cir. 2012) ................................ 23
Concrete Pipe & Products of California v.
Construction Laborers Pension Trust,
508 U.S. 602 (1993) .......................................... 3, 13
Desert Palace, Inc. v. Costa,
539 U.S. 90 (2003) ........................................ passim
Figueroa v. Pompeo,
923 F.3d 1078 (D.C. Cir. 2019) ............................ 16
Furnco Construction Corp. v. Waters,
438 U.S. 567 (1978) ...................................16, 23-24

vii

Griffith v. City of Des Moines,
387 F.3d 733 (8th Cir. 2004) ................................ 23
Gross v. FBL Financial Services,
557 U.S. 167 (2009) ............................ 13, 17, 18, 20
Holland v. United States,
348 U.S. 121 (1954) .............................................. 14
Jefferson v. Sewon Am.,
891 F.3d 911 (11th Cir. 2018) .............................. 19
Lewis v. City of Union City, Georgia,
934 F.3d 1169 (11th Cir. 2019) ............................ 19
Maraschiello v. City of Buffalo Police Dep’t,
709 F.3d 87 (2d Cir. 2013) ................................... 12
McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973) ...................................... passim
Melvin v. Federal Express Corp.,
814 Fed. Appx. 506 (11th Cir. 2020)...................... 1
Ortiz v. Werner Enterprises, Inc.,
834 F.3d 760 (7th Cir. 2016) .................... 10, 11, 12
Patterson v. Walgreen Co.,
140 S. Ct. 685 (2020) ............................................ 25
Poller v. Columbia Broadcasting System, Inc.,
368 U.S. 464 (1962) ................................................ 5
Postal Service Bd. of Governors v. Aikens,
460 U.S. 711 (1983) .................................. 14, 17, 20
Price Waterhouse v. Hopkins,
490 U.S. 228 (1989) ........................................ 18, 24
Reeves v. Sanderson Plumbing Products,
530 U.S. 133 (2000) ...................................... passim

viii

Rogers v. Missouri Pac. R. Co.,
352 U.S. 500 (1957) .............................................. 14
Silverman v. Bd. of Educ. of City of Chicago,
637 F.3d 729 (7th Cir. 2011) ................................ 11
Smith v. Lockheed-Martin Corp.,
644 F.3d 1321 (11th Cir. 2011) ........................ 3, 11
St. Mary’s Honor Center v. Hicks,
509 U.S. 502 (1993) ............................ 14, 16, 17, 19
Texas Department of Community Affairs v.
Burdine,
450 U.S. 248 (1981) ........................................ 16, 18
Torgerson v. City of Rochester,
643 F.3d 1031 (8th Cir. 2011) .............................. 12
Trans World Airlines v. Thurston,
469 U.S. 111 (1985) ........................................ 18, 24
Wells v. Colorado Dep’t of Transp.,
325 F.3d 1205 (10th Cir. 2003) ...................... 23, 24
Willis v. UPMC Children’s Hosp. of Pittsburgh,
808 F.3d 638 (3d Cir. 2015) ................................. 12
Zabala-De Jesus v. Sanofi-Aventis P.R., Inc.,
959 F.3d 423 (1st Cir. 2020) ................................ 12
Statutes and Other Authorities:
1 Jones on Evidence § 4:2 (7th ed. 2020) ............... 15
28 U.S.C. § 1254(1) ................................................... 1
28 U.S.C. § 1291 ........................................................ 8
28 U.S.C. § 1331 ........................................................ 7

ix

29 U.S.C. § 623(a)(1) ................................. 2, 7, 13, 19
42 U.S.C. § 1981(a) ................................................. 19
42 U.S.C. § 2000e(m),
Title VII § 701(m) ................................................. 14
42 U.S.C. § 2000e-2(a)(1),
Title VII § 703(a)(1) ........................................ 14, 19
Denny Chin, Summary Judgment in Employment
Discrimination Cases: A Judge's Perspective,
57 N.Y.L. Sch. L. Rev. 671 (2013) .................. 23, 24
Fed. R. Evid. 301 ..................................................... 15
Federal Judicial Center, Judicial Facts
and Figures 2019, tbl. 4.4. (nature of suit:
civil-rights: employment and civil-rights:
ADA-employment) ................................................ 22
Memorandum from Joe Cecil & George Cort,
Fed. Judicial Ctr., to Judge Baylson, (table 4)
(Aug. 13, 2008) ..................................................... 25
Sup. Ct. R. 30.1 ......................................................... 1
Timothy M. Tymkovich, The Problem with
Pretext, 85 Denver U. L. Rev. 503 (2008) ..... 23, 24

1

DECISIONS BELOW
The magistrate judge’s report & recommendation
recommending summary judgment for Respondent is
reprinted at App. 59a-108a. The district court’s
decision granting summary judgment to Respondent
is reprinted at App. 27a-58a. The Eleventh Circuit’s
opinion affirming the district court’s judgment is
reported at Melvin v. Federal Express Corp., 814 Fed.
Appx. 506 (11th Cir. 2020) and reprinted at App.
1a-26a.
STATEMENT OF JURISDICTION
On May 21, 2020, the Eleventh Circuit issued its
opinion affirming the district court’s grant of
summary judgment to Respondent. The full Eleventh
Circuit issued an order denying en banc rehearing on
September 10, 2020. Per this Court’s Order of March
19, 2020, the deadline for filing petitions for writ of
certiorari is extended to 150 days. 150 days from
September 10, 2020 is Sunday, February 7, 2021. Per
this Court’s Rule 30.1, deadlines that end on a
Saturday or Sunday are extended to the next business
day. Here, that is Monday, February 8, 2021. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
PERTINENT STATUTORY PROVISIONS
The Age Discrimination in Employment Act of
1967 (“ADEA”) provides that it is “unlawful” for an
employer
to fail or refuse to hire or to discharge
any individual or otherwise discriminate
against any individual with respect to
his compensation, terms, conditions, or

2

privileges of employment, because of
such individual's age.
29 U.S.C. § 623(a)(1).

3

INTRODUCTION
Under the typical “preponderance of the evidence”
standard of proof, the factfinder examines all the
evidence as a whole and determines whether such
evidence shows that the plaintiff has, more likely than
not, proven her case. This standard is applicable in
most civil cases. Concrete Pipe & Products of
California v. Construction Laborers Pension Trust,
508 U.S. 602, 622 (1993). And this Court has
instructed that, at summary judgment, the evidence
must be viewed “as a whole.” Reeves v. Sanderson
Plumbing Products, 530 U.S. 133, 150 (2000).
However, the lower courts have applied a special
heightened standard of proof to employment
discrimination cases, in contravention of this Court’s
precedent.
Employment discrimination lawsuits often turn on
whether there is enough proof of discriminatory intent
to survive a defendant-employer’s summary judgment
motion. But, instead of applying the simple
“preponderance of the evidence” standard, the lower
courts have fashioned special heightened standards of
proof that add needless complexity to a
straightforward inquiry. Some courts do this by
mistaking the legal presumption created by this Court
in McDonnell Douglas Corp. v. Green, 411 U. S. 792
(1973) for a standard of proof and requiring all
discrimination plaintiffs to meet the elements of that
“standard” to survive summary judgment. Others, like
the Eleventh Circuit, utilize alternative tests, such as
“a convincing mosaic of circumstantial evidence.”
Smith v. Lockheed-Martin Corp., 644 F.3d 1321, 1328
(11th Cir. 2011). Whatever the formulation, these
departures from the basic preponderance standard

4

inevitably cause courts to focus on secondary issues
like the distinction between direct and circumstantial
evidence, the compartmentalization of that evidence,
and the analysis of the part, rather than an
examination of the whole. By applying these
heightened standards of proof, employment
discrimination cases at summary judgment have
become “full-blown paper trial[s] on the merits.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 266-67
(1986) (Brennan, J., dissenting).
In this case, the Eleventh Circuit applied one such
special heightened standard of proof (“convincing
mosaic”), in conflict with the Seventh Circuit’s
rejection of the very same special standard of proof.
More generally, the Eleventh Circuit and the Seventh
Circuit are on opposite sides of a split among the
federal courts of appeal over whether to apply special
standards of proof to employment discrimination
cases or, instead, to simply examine all the evidence
and determine whether a reasonable jury could find
that the evidence proves, more likely than not, that
discrimination motivated the adverse action.
This Court, however, has squarely rejected
heightened standards of proof in employment
discrimination cases, including ones that depend on a
distinction between “direct” and “circumstantial”
evidence. Neither Congress nor the McDonnell
Douglas legal presumption require otherwise.
Nonetheless, special heightened standards of proof –
like the one applied below – continue to bedevil
lawyers and judges in lower courts. And, as some
federal judges have themselves complained, such
special heightened standards of proof lead them to

5

evaluate discriminatory intent evidence at summary
judgment differently than they otherwise would,
resulting in disproportionate dismissal of employment
discrimination cases compared to other types of cases.
This Court, in Poller v. Columbia Broadcasting
System, Inc., 368 U.S. 464, 473 (1962 explained that
“summary
procedures
should
be
used
sparingly. . . where motive and intent play leading
roles, the proof is largely in the hands of the
conspirators, and hostile witnesses thicken the plot.”
While this Court, in Poller, was concerned with
complex antitrust litigation, motive and intent are a
significant part of employment discrimination cases.
Id. Accordingly, this Court should grant this petition
and answer the question presented.
STATEMENT OF THE CASE
By 2016, Petitioner Roddie Melvin was a highly
successful, award-winning executive of Respondent
Federal Express Corporation (“FedEx”). He had, over
the course of 33 years at the company, worked his way
up the corporate ladder, receiving several promotions
and internal job offers, rising from rank-and-file
worker to Managing Director. App. 2a, 61a. FedEx
awarded Melvin numerous merit awards for his
exceptional work between 1990 and 2010. App. 2a,
61a.
Melvin’s previous managers praised his work. Vice
President Reggie Owens testified that Melvin was a
“sound director” who “ran a good ship” and “took care
of business.” App. 3a. Senior Vice President Mike
Pigors found Melvin to be an effective leader who “did
good jobs” and even noted that “Rod did a good job or
else he wouldn’t have been promoted and moved

6

around.” D. Ct. Doc. 60, pp. 23-25. Ricky Brock, the
Vice President over Melvin until spring of 2016,
testified that Melvin’s peers respected him and that
Melvin was receptive to changing his leadership style
where needed. App. 3a. Brock testified that, in the
spring of 2016, before a new Vice President was
appointed, Melvin was not on a path toward
termination. App. 3a.
In spring of 2016, a new Vice President, Joseph
Stephens, became Melvin’s supervisor. In their first
conversation, Stephens asked Melvin when he was
going to retire, how old he was, and why he would
want to continue in the job “given [his] age,” and
encouraged him to “move on and let the ‘young guys’
take over.” App. 3a-4a. Before Stephens, Melvin had
only received two disciplinary letters in thirty-two
years with FedEx, and no previous manager had ever
issued more than one such letter to him. App. 3a, 31a.
But, after the above conversation, Stephens issued
three disciplinary letters against Melvin over six
months. FedEx thereafter fired Melvin. App. 3a-6a.
As Senior Vice President (and, later, President of
FedEx) Pigors testified, it was extremely rare for
FedEx to issue disciplinary letters to Managing
Directors, and the practice for managers at Melvin’s
level was to give them every opportunity to fix an issue
and, if that failed, to advise them to move to a different
position. D. Ct. Doc. 60, pp. 30-31. Pigors also
testified that so many errors occur at FedEx each day
that, if Managing Directors were held strictly
accountable for each of the errors in their district, they
would all be terminated every 90 days (including
Pigors himself). Id. at pp. 45-46.

7

Melvin filed suit, alleging in part that FedEx had
fired him because of his age in violation of the Age
Discrimination in Employment Act (“ADEA”), 29
U.S.C. § 623(a)(1). The district court had jurisdiction
under 28 U.S.C. § 1331.
On January 28, 2019, U.S. Magistrate Judge J. Clay
Fuller issued a report recommending, among other
things, that the district court grant FedEx’s motion for
summary judgment on Melvin’s ADEA claim. App. 72a97a. Magistrate Judge Fuller reasoned that because
Melvin “does not point to direct evidence of
discrimination,” App. 74a (n. 6), he had to establish a
prima facie case of age discrimination under the
“McDonnell Douglas evidentiary framework.” App.
75a. In turn, Magistrate Judge Fuller concluded that:
(1) Melvin had enough evidence of a prima facie case;
(2) FedEx had enough evidence of a non-discriminatory
reason for firing Melvin; but (3) Melvin had not
submitted enough evidence for a reasonable jury to find
that FedEx’s proferred reasons were pretext for firing
him because of his age. App. 76a-90a. Magistrate Judge
Fuller also considered, in the alternative, whether
Melvin had “produced circumstantial evidence of
discriminatory intent through the ‘convincing mosaic’
standard” of proof, and concluded that Melvin’s
evidence did not satisfy that standard. App. 90a-97a.
By order and opinion dated May 1, 2019, the
district court granted summary judgment on Melvin’s
ADEA claim based in part on the Magistrate’s report
and recommendation. App. 28a. The district court
concluded that Stephens’ ageist comments, though
“disturbing,” were “not probative, circumstantial

8

evidence” that FedEx fired Melvin because of his age.
App. 54a. Rather, Stephens’s statements were
“isolated remarks” that “alone” did not “establish a
material fact on pretext or a convincing mosaic.” App.
54a. The district court also concluded that, given the
evidence in the record, no reasonable jury could find
that FedEx’s justifications for firing Melvin in the
three disciplinary letters were pretext for firing him
because of his age. App. 33a-34a, 37a-39a, 41a-42a,
45a-51a. Judgment was entered on May 1, 2019.
Melvin filed a notice of appeal on May 1, 2019, to
the Eleventh Circuit, which had jurisdiction under 28
U.S.C. § 1291. On appeal, Melvin argued, inter alia,
that the district court had erred in granting summary
judgment under the Eleventh Circuit’s “convincing
mosaic” standard of proof and urged the court to
interpret that standard to consider all the evidence
together in “[w]hatever form it takes.” Appellant’s
Corrected Initial Brief before Eleventh Cir., at p. 12
(Oct. 11, 2019) (quoting Chapter 7 Tr. v. Gate
Gourmet, 683 F.3d 1249, 1256 (11th Cir. 2012)).
By opinion dated May 21, 2020, the Eleventh
Circuit affirmed the district court’s judgment. The
Eleventh Circuit, applying its “convincing mosaic”
standard,1 first found that Stephens’s ageist
––––––––––––––––––––––––
The Eleventh Circuit noted that even assuming arguendo
that Melvin “failed to create” a McDonnell-Douglas prima facie
case, as FedEx had argued, it would “still” apply its “convincing
mosaic” standard of proof, which it took “at least in this case” as
“largely indistinguishable from our ordinary pretext analysis.”
App. 9a-10a (Op. n. 3).
1

9

comments to Melvin were not “direct” evidence of
discrimination, but circumstantial. App. 10a. The
court then concluded that Stephens’s ageist comments
were “probative as to whether age animus motivated”
the termination and that the comments “certainly
support a showing of discriminatory intent.” App. 11a.
Nonetheless, the Eleventh Circuit held that such
evidence of discriminatory intent was not enough to
defeat summary judgment; it also required Melvin to
produce enough evidence that, on its own, would lead
a reasonable jury to find that FedEx’s proffered
reasons for the termination were pretext. App. 11a12a. The court then concluded that Melvin had not
produced enough such evidence of pretext and, for that
reason, affirmed summary judgment on Melvin’s
ADEA claim. App. 12a-24a. Melvin’s petition for
rehearing en banc was denied on September 10, 2020.
App. 109a.
REASONS FOR GRANTING THE WRIT
I.

The Decision Below Conflicts with the
Seventh Circuit’s Rejection of Special
Heightened Standards of Proof in
Discrimination Cases

By applying its “convincing mosaic” standard of
proof, the court below split with the Seventh Circuit,
which: (i) expressly rejected “convincing mosaic” as a
standard of proof and (ii) more generally rejected
special heightened standards of proof in favor of a
straightforward examination of whether the evidence
supports a finding of discriminatory intent.

10

In Ortiz v. Werner Enterprises, Inc., 834 F.3d 760
(7th Cir. 2016), the Seventh Circuit, in an opinion by
Judge Frank H. Easterbrook, explained that
“convincing mosaic” was originally “a metaphor to
illustrate why courts should not try to differentiate
between direct and indirect evidence,” and thus to
remind lawyers and judges that “all evidence is
inferential and cannot be sorted into boxes. All
evidence should be considered together to understand
the pattern it reveals.” Id. at 764 (emphasis added). In
reaching this conclusion, Judge Easterbrook was in
accord with Justice Thomas’s opinion for this Court in
Desert Palace, Inc. v. Costa, 539 U.S. 90, 100 (2003)
(“The reason for treating circumstantial and direct
evidence alike is both clear and deep-rooted:
Circumstantial evidence is not only sufficient, but
may also be more certain, satisfying and persuasive
than direct evidence.”) (cleaned up).
Unfortunately, Judge Easterbrook explained,
district courts – and some panels of Seventh Circuit
judges – took “convincing mosaic” as a legal test – a
“governing legal standard” of proof in discrimination
cases. Ortiz 834 F.3d at 765. To stop this, the Seventh
Circuit rejected “convincing mosaic” as a standard of
proof in discrimination cases, declaring that a district
court acting otherwise is “subject to summary
reversal,” because the “correct” standard is simply
“whether the evidence would permit a reasonable
factfinder to conclude that the plaintiff’s race,
ethnicity, sex, religion, or other proscribed factor
caused the discharge or other adverse employment
action.” Id. And to forestall any other special standards
of proof in discrimination cases that depend on
distinguishing between “direct” and “indirect” evidence

11

– the original failed purpose of the “convincing
metaphor” metaphor – the Seventh Circuit also held
that “district courts must stop separating ‘direct’ from
‘indirect’ evidence and proceeding as if they were
subject to different legal standards.” Id.
The circuit split is plain. The court below applied
the very “convincing mosaic” standard of proof and
direct-evidence/indirect-evidence distinction that the
Seventh Circuit rejected. Indeed, the Eleventh Circuit
first adopted “convincing mosaic” as a standard of
proof by importing it from a Seventh Circuit opinion
that had mistaken “convincing mosaic” as a special
standard of proof for circumstantial evidence in
discrimination cases. Smith v. Lockheed-Martin
Corp., 644 F.3d 1321, 1328 (11th Cir. 2011) (quoting
Silverman v. Bd. of Educ. of City of Chicago, 637 F.3d
729, 734 (7th Cir. 2011)). The Seventh Circuit,
however, expressly overruled Silverman to the extent
that it relied on “convincing mosaic” as a standard of
proof, Ortiz, 834 F.3d at 764-65, and “insist[ed] on the
use of the direct-and-indirect framework,” id. at
766-67. To state the circuit split in stark terms: if the
Eleventh Circuit’s decision below were issued by a
district court within the Seventh Circuit, it would
have been subject to summary reversal. Id. at 765.
More generally, the Eleventh Circuit and the
Seventh Circuit are now on opposite sides of a split
among the circuits over whether to apply special
standards of proof to employment discrimination cases
or, instead, to simply examine all the evidence and
determine whether it proves that a reasonable jury
could find that, more likely than not, discrimination
motivated the adverse action. The Seventh Circuit, as

12

noted above, rejects special standards of proof and
directs its district courts to simply examine “whether
the evidence would permit a reasonable factfinder to
conclude that the plaintiff’s [protected characteristic]
caused” the challenged adverse action. Id. In contrast,
the Eleventh Circuit in this case joins multiple other
circuits in holding that, unless there is “direct”
evidence of discrimination, a court must apply some
special heightened standard of proof – either
“convincing mosaic” or a misapplication of McDonnell
Douglas as a standard of proof (when it is actually just
a legal presumption).2 Compare, e.g., Zabala-De Jesus
v. Sanofi-Aventis P.R., Inc., 959 F.3d 423, 428 (1st Cir.
2020) (ADEA); Maraschiello v. City of Buffalo Police
Dep’t, 709 F.3d 87, 94 (2d Cir. 2013) (Title VII); Willis
v. UPMC Children’s Hosp. of Pittsburgh, 808 F.3d 638,
644 (3d Cir. 2015) (ADEA); Clark v. Champion
National Sec., Inc., 952 F.3d 570, 579-82 (5th Cir. 2020)
(Americans with Disabilities Act); Torgerson v. City of
Rochester, 643 F.3d 1031, 1043-44 (8th Cir. 2011) (Title
VII); Aubrey v. Koppes, 975 F.3d 995, 1014 (10th Cir.
2020) (ADA); with Ortiz, 834 F.3d at 765 (requiring
district courts to “stop separating ‘direct’ from ‘indirect’
evidence and proceeding as if they were subject to
different legal standards”); see also id. at 766 (“[A]ll
evidence belongs in a single pile and must be evaluated
as a whole. That conclusion is consistent with
McDonnell Douglas and its successors.”); cf. Brady v.
Office of Sergeant at Arms, 520 F.3d 490, 495 (D.C. Cir.
2008) (Kavanaugh, J.) (at summary judgment, where
––––––––––––––––––––––––
More on the misapplication of McDonnell Douglas as a
standard of proof in Section II.A, infra.
2

13

employer has proffered proof of a non-discriminatory
reason, “the district court need not — and should not
— decide whether the plaintiff actually made out a
prima facie case under McDonnell Douglas”).
II.

The Eleventh Circuit’s Decision Below
Conflicts with This Court’s Precedent

By applying its “convincing mosaic” standard of
proof below, the Eleventh Circuit contravened this
Court’s precedent that no special heightened
standards
of
proof
apply
in
employment
discrimination cases.
A. No Special Heightened Standards of Proof
Apply in Employment Discrimination
Cases
Because the ADEA bars an employer from firing
someone “because of such individual’s age,” 29 U.S.C.
§ 623(a)(1), this Court has held that a plaintiff alleging
an employer fired them in violation of this provision
“must prove, by a preponderance of the evidence, that
age was the ‘but-for’ cause of the challenged adverse
employment action.” Gross v. FBL Financial Services,
557 U.S. 167, 180 (2009) (emphasis added).
The standard of proof is simply the “preponderance
of the evidence” standard – the “most common”
standard of proof in civil cases. Concrete Pipe &
Products of California v. Construction Laborers
Pension Trust, 508 U.S. 602, 622 (1993). There is no
“heightened evidentiary requirement for ADEA
plaintiffs,” because Congress could have – but did not
– write such heightened proof requirements into the
ADEA. Gross, 557 U.S. at 178 n. 4; see Reeves v.
Sanderson Plumbing Products, 530 U.S. 133, 148

14

(2000) (“[W]e have reiterated that trial courts should
not treat discrimination differently from other
ultimate questions of fact.”) (cleaned up).
Likewise, plaintiffs suing under section 703(a)(1)
of Title VII must prove, by a preponderance of the
evidence, that the employer fired or otherwise
discriminated against an individual “because of such
individual’s race, color, religion, sex, or national
origin.” 42 U.S.C. § 2000e-2(a)(1). The “conventional
rule of civil litigation . . . generally applies in Title VII
cases,” i.e., a plaintiff must “prove his case by a
preponderance of the evidence using direct or
circumstantial evidence.” Desert Palace v. Costa, 539
U.S. 90, 99 (2003) (cleaned up). That accords with a
“clear and deep rooted” consensus that circumstantial
evidence can be just as reliable as “direct” evidence,
id. at 100; see also Rogers v. Missouri Pac. R. Co., 352
U.S. 500, 508 n.17 (1957); Holland v. United States,
348 U.S. 121, 137-38 (1954), and that Title VII’s text
does not indicate otherwise, Desert Palace, 539 U.S. at
99 (relying on Congress’ failure to refer to “direct
evidence or some other heightened showing” in section
701(m) of Title VII, 42 U.S.C. § 2000e(m)); see also
Postal Service Bd. of Governors v. Aikens, 460 U.S.
711, 716 (1983) (although “the question facing triers
of fact in discrimination cases is both sensitive and
difficult,” courts should not “treat discrimination
differently from other ultimate questions of fact”);
accord St. Mary’s Honor Center v. Hicks, 509 U.S. 502,
524 (1993).
Despite this Court’s clear instruction that
employment discrimination cases should be evaluated
by the same standard of proof as any other civil case

15

in determining the ultimate question of fact, many
lower courts mistakenly believe the legal presumption
first declared in McDonnell Douglas Corp. v. Green,
411 U.S. 792 (1973) is a standard of proof that must
be applied in all employment discrimination cases.
On the contrary, with respect to plaintiffs who do
not have “direct” evidence of discrimination, this
Court’s precedent does not provide that, at summary
judgment, employment discrimination plaintiffs must
produce evidence to meet the McDonnell-Douglas
prima facie case. To require otherwise confuses a
legal presumption with the ultimate standard of proof.
A legal presumption is a rule that, if a party proves
certain facts, the factfinder must take a material fact
as if it is proven true, unless another party produces
enough evidence to the contrary. 1 Jones on Evidence
§ 4:2 (7th ed. 2020). In this respect, legal
presumptions in civil cases affect who bears the
burden of producing evidence of a material fact. E.g.,
Fed. R. Evid. 301. Legal presumptions, however, do
not alone alter the standard of proof that applies to
that material fact – the point on the conceptual
yardstick for deciding how much evidence is enough to
find that material fact to be true. After all, if a
presumption is not rebutted, the factfinder must take
that material fact as if it is already proven true, and
therefore, the standard of proof does not matter.
The McDonnell Douglas legal presumption is just
that: a legal presumption. It is a tool to force
defendant-employers to articulate their purported
justification for the adverse action.
McDonnell
Douglas does not itself require any special heightened
standard of proof to decide summary judgment

16

motions in Title VII and ADEA cases. If a Title VII or
ADEA plaintiff chooses to rely on it, the
McDonnell-Douglas presumption triggers if – and only
if – the plaintiff establishes a “prima facie case” and
the employer has offered no proof of a legitimate nondiscriminatory reason for its adverse action. Furnco
Construction Corp. v. Waters, 438 U.S. 567, 577 (1978)
(“A prima facie case under McDonnell Douglas raises
an inference of discrimination only because we
presume these acts, if otherwise unexplained, are
more likely than not based on the consideration of
impermissible factors.”).
If the presumption triggers, the burden of
production on the ultimate issue of fact – whether the
defendant acted because of a discriminatory motive –
shifts to the defendant. If the defendant then produces
enough evidence of a legitimate non-discriminatory
reason for its adverse action, see Figueroa v. Pompeo,
923 F.3d 1078, 1087-92 (D.C. Cir. 2019), the
presumption is rebutted and therefore “drops from the
case,” Texas Department of Community Affairs v.
Burdine, 450 U.S. 248, 253 (1981), and “the
McDonnell Douglas framework – with its
presumptions and burdens – is no longer relevant,”
Hicks, 509 U.S. at 510; see id. at 510-511 (“The
presumption, having fulfilled its role of forcing the
defendant to come forward with some response, simply
drops out of the picture.”) (emphasis added); see also
Brady v. Office of Sergeant at Arms, 520 F.3d 490, 493
(D.C. Cir. 2008) (Kavanaugh, J.) (McDonnell Douglas
prima facie case is “almost always irrelevant” because
“by the time the district court considers an employer’s
motion for summary judgment or judgment as a
matter of law, the employer ordinarily will have

17

asserted a legitimate, non-discriminatory reason for
the challenged decision”).
Whether “the McDonnell Douglas presumption”
applies or is rebutted, the plaintiff “at all times” bears
the burden of persuasion on the ultimate issue of
discriminatory intent; “[i]n this regard [McDonnell
Douglas] operates like all presumptions” in civil cases.
Hicks, 509 U.S. at 507 (citing Fed. R. Evid. 301). If
that presumption does not even affect who bears the
burden of persuasion on the ultimate issue of
discriminatory intent, it certainly cannot affect the
standard of proof for deciding whether the plaintiff’s
evidence meets that burden. And, on that ultimate
issue of fact, this Court’s precedent is clear: only the
preponderance-of-the-evidence standard applies and
not any special heightened standard of proof,
particularly one that depends on whether there is
“direct” evidence of discriminatory intent. Desert
Palace, 539 U.S. at 99; Aikens, 460 U.S. at 716; Reeves
v. Sanderson Plumbing Products, 530 U.S. 133, 148
(2000); Gross v. FBL Financial Services, 557 U.S. 167,
178 n. 4 (2009). That is no less so on summary
judgment, where a court must take as given, not alter,
the “substantive evidentiary standards that apply to
the case.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 255 (1986). Accordingly, the McDonnell Douglas
presumption itself cannot justify lower courts
imposing a special standard of proof in ADEA and
Title VII cases at summary judgment that turns on
whether there is “direct” evidence.
To be sure, this Court once tersely called the
McDonnell-Douglas
presumption
“inapplicable”
because, in an ADEA case, there was “direct evidence”

18

that the challenged employer policy discriminated by
age “on its face.” Trans World Airlines v. Thurston,
469 U.S. 111, 121 (1985). And a Justice of this Court
once opined that the burden of proof on causation
should shift to the defendant-employer if a Title VII
“disparate treatment plaintiff” showed “by direct
evidence that an illegitimate criterion was a
substantial factor” in that employer’s decision. Price
Waterhouse v. Hopkins, 490 U.S. 228, 276 (1989)
(O’Connor, J., concurring in the judgment). Whatever
their precedential value at the time, these references
to “direct” evidence no longer matter, given this
Court’s subsequent rulings. See Desert Palace, 539
U.S. at 99-100; Gross, 557 U.S. at 178 n. 4.
Similarly, although lawyers and judges, including
the Justices of this Court, sometimes refer to a
“pretext” inference as an “indirect” way, as opposed to
a “direct” way, to prove discriminatory intent, see, e.g.,
Burdine, 450 U.S. at 256, such a distinction is
colloquial at best. There is nothing special about a
“pretext” inference in employment discrimination
cases. It is just a variation on “the general principle of
evidence law that the factfinder is entitled to consider
a party’s dishonesty about a material fact as
affirmative evidence of guilt.” Reeves, 530 U.S. at 147
(cleaned up).
Thus, it does not matter whether a subset of
evidence in the record supports a finding of
discriminatory motive by way of a “pretext” inference,
by inferring what someone believes from what they
say out loud (a “comments” inference), or by another
of the many ways to infer whether a material fact is
true from some item of evidence. Whatever the labels

19

for the different inferences, the target is exactly the
same: whether, under the preponderance standard,
there is enough evidence to infer that the defendant
acted “because of such individual’s” race, age, or other
protected category. 42 U.S.C. § 2000e-2(a)(1); 29
U.S.C. § 623(a)(1). “[P]roving the employer’s reason
false [is] part of (and often considerably assists) the
greater enterprise of proving that the real reason was
intentional discrimination.” Hicks, 509 U.S. at 517.
This is why evidence disproving the employer’s
proffered reason permits – but does not compel – a
factfinder to find discriminatory motive. Id. at 519; see
also Reeves, 530 U.S. at 148-149 (same for ADEA).
B. The Court Below Ignored this Court’s
Precedent
by
Applying
a
Special
Heightened Standard of Proof
The Eleventh Circuit’s decision in this case
conflicts with this Court’s precedent, because of the
special heightened standard of proof it applied below.
First, the Eleventh Circuit’s special “convincing
mosaic of circumstantial evidence” standard, on its
face, applies only if there is no “direct” evidence of
discriminatory intent. App. 8a-9a; Lewis v. City of
Union City, Georgia, 934 F.3d 1169, 1185 (11th Cir.
2019) (applying convincing-mosaic standard to claims
under Title VII and 42 U.S.C. § 1981(a)); see also
Jefferson v. Sewon Am., 891 F.3d 911, 922 (11th Cir.
2018) (“Because Jefferson presented direct evidence of
discrimination, the district court erred when it
evaluated this evidence under the burden-shifting test

20

for circumstantial evidence established in McDonnell
Douglas.”).
This Court’s precedent, see Gross, 557 U.S. at 178
n. 4; Desert Palace, 539 U.S. at 99-100; Aikens, 460
U.S. at 714 n. 3, however, requires only a
preponderance-of-the-evidence standard of proof,
regardless of whether the evidence of discriminatory
intent is mostly “direct” or not. In contrast, the
“convincing” mosaic standard is, by its own terms, a
higher standard than preponderance, and resonates
with the “clear and convincing evidence” standard. In
any case, had the Eleventh Circuit followed this
Court’s precedent, it would not have mattered
whether Stephens’s ageist comments were “direct” or
“circumstantial” evidence of discriminatory intent,
because all the evidence would have been considered
together. App. 10a-11a.
Second, the Eleventh Circuit’s special heightened
standard of proof caused it to over-compartmentalize
evidence in a way that distracted from the ultimate
question of whether the plaintiff can prove
discriminatory intent by a preponderance of the
evidence. That court first found that Stephens’s ageist
comments to Melvin were not “direct evidence of
discrimination” but circumstantial. App. 10a-11a.
Thus, though it found the substance, context, and
timing of those comments to “certainly support a
showing of discriminatory intent,” the court below
nonetheless required Melvin to also produce enough
additional evidence that, on its own, would lead a
reasonable jury to discredit the content of each of
three disciplinary letters Stephens issued against

21

him.3 App. 11a-12a. (The content of those letters, and
that Melvin had received them during a twelve-month
period, was FedEx’s proffered basis for firing him.
App. 5a-6a.)
In doing so, the court below isolated one subset of
evidence, Stephens’s oral comments to Melvin about
his age, from another subset of evidence, the three
disciplinary letters, only because it concluded the
ageist comments were not “direct” enough evidence of
discriminatory intent. Then, in analyzing “pretext”,
the court below ignored the evidence of discriminatory
intent as if it had no weight.
Under this Court’s precedent, however, the
standard of proof does not vary with the different kinds
of inferences that a reasonable jury could draw from
the evidence in the record. Had the Eleventh Circuit
followed this Court’s precedent, it would not have
evaluated what a reasonable jury could infer from the
“pretext” evidence separately from the comments
evidence. Reeves, 530 U.S. at 150 (“In the . . . context of
––––––––––––––––––––––––
The Eleventh Circuit reached this conclusion, crediting
Stephens’ letters, even though this Court’s summary judgment
precedent does not require the jury to credit a defendant’s
proffered justification when it comes from an interested witness.
Reeves, 530 U.S. at 151 ([A]lthough the court should review the
record as a whole, it must disregard all evidence favorable to the
moving party that the jury is not required to believe. . . That is,
the court should give credence to the evidence favoring the
nonmovant as well as that evidence supporting the moving party
that is uncontradicted and unimpeached, at least to the extent
that the evidence comes from disinterested witnesses.”) (cleaned
up; emphasis added).
3

22

summary judgment under Rule 56, we have stated that
the court must view the record taken as a whole”)
(cleaned up). Instead, it would have simply asked
whether a reasonable jury could find discriminatory
intent, after taking into account all the evidence in the
record as a whole. In turn, that would have led the
court to consider, for example, whether a reasonable
jury could discredit FedEx’s proffered reasons for firing
Melvin, in light of: (i) Stephens’s baldly ageist
comments, (ii) Melvin’s many promotions and awards,
(iii) the fact that (before Stephens) FedEx issued only
two disciplinary letters to him over a 30-plus year
career with FedEx, and (iv) Senior Vice President
Pigors’ deposition testimony about how rarely FedEx
issues disciplinary letters to Managing Directors and
how it gives them career counseling instead. That is
something the court below did not do. App. 12a-24a.
III.

This Petition Concerns an Important
Federal Question Because Special
Heightened Standards of Proof Distort
How
Lower
Courts
Analyze
Discrimination Cases

This petition’s question is important. Special
heightened
standards
of
proof
in
federal
discrimination lawsuits implicate an important part
of the federal judiciary’s work.4 That may explain why,
––––––––––––––––––––––––
In fiscal years 2015-2019, about 14,600 employment
discrimination lawsuits on average were filed annually in the
federal district courts. Federal Judicial Center, Judicial Facts
and Figures 2019, tbl. 4.4. (nature of suit: civil-rights:
employment and civil-rights: ADA-employment).
4

23

over the past two decades, federal judges have openly
lamented the special standards of proofs that they
believe they must use to decide summary judgment
motions in employment discrimination cases. E.g.,
Coleman v. Donahoe, 667 F.3d 835, 863 (7th Cir. 2012)
(Wood, J., concurring); Griffith v. City of Des Moines,
387 F.3d 733, 743 (8th Cir. 2004) (Magnuson, J.,
concurring); Wells v. Colorado Dep’t of Transp., 325
F.3d 1205, 1225-1228 (10th Cir. 2003) (Hartz, J.,
concurring); Denny Chin, Summary Judgment in
Employment Discrimination Cases: A Judge's
Perspective, 57 N.Y.L. Sch. L. Rev. 671 (2013) (Judge,
Second Circuit); Timothy M. Tymkovich, The Problem
with Pretext, 85 Denver U. L. Rev. 503, 521-522 (2008)
(Judge, Tenth Circuit).
Among their concerns, some judges have criticized
any special standard of proof that requires deciding,
at summary judgment, whether evidence of
discriminatory intent counts as “direct” evidence.
Such an inquiry is unduly difficult. Wells, 325 F.3d at
1225 (Hartz, J.); Tymkovich, supra at 521. It distracts
from and obscures the ultimate issue of whether the
plaintiff has enough evidence of discriminatory intent
to proceed to trial. E.g., id. at 522; Wells, 325 F.3d at
1225. It cuts against the “clear and deep rooted”
consensus that circumstantial evidence can be as or
more reliable than “direct” evidence, Desert Palace,
539 U.S. at 100. See Tymkovich, supra at 522.
These judges also critique the special heightened
standards of proof for causing courts to overcompartmentalize evidence. McDonnell Douglas was
“never intended to be rigid, mechanized, or
ritualistic.” Furnco Construction Corp. v. Waters, 438

24

U.S. 567, 577 (1978). However, by applying McDonnell
Douglas or its alternatives (like “convincing mosaic”)
as heightened standards of proof, the courts often
commit the same fatal error as the Eleventh Circuit
made below: considering certain evidence only with
respect to one “stage” of the inquiry while ignoring it
throughout the rest of the inquiry. Wells, 325 F.3d at
1225 (Hartz, J.); Tymkovich, supra at 521. In the case
below, the Eleventh Circuit failed to consider evidence
of discriminatory intent when evaluating whether
Melvin had shown sufficient evidence of pretext. App.
10a-12a. Other courts never examine evidence of
pretext because they determine a plaintiff did not
show a prima facie case. See Wells, 325 F.3d at 1224
(“Is it really possible that McDonnell Douglas . . . could
require judgment against a plaintiff when the
evidence as a whole would support a plaintiff’s verdict
but the plaintiff somehow has not made out a prima
facie case?”).
Finally, judges have noted that special heightened
proof standards defeat this Court’s original purpose
for McDonnell Douglas: “to compensate for the fact
that direct evidence of intentional discrimination is
hard to come by.” Price Waterhouse v. Hopkins, 490
U.S. 228, 271 (1989) (O'Connor, J., concurring).
Despite the unavailability of direct evidence, this
Court wanted to assure that the “plaintiff [has] his
day in court.” Trans World Airlines v. Thurston, 469
U.S. 111, 121 (1985).
However, judges have noted that the special
heighted proof standards have had the opposite effect.
Chin, supra at 677. One frequently cited study found
that employment discrimination cases ended at

25

summary judgment 77% of the time, whereas contract
and tort cases had summary judgment grant rates of
59% and 61%, respectively. See Memorandum from
Joe Cecil & George Cort, Fed. Judicial Ctr., to Judge
Baylson, at 9 (table 4) (Aug. 13, 2008). Judge Chin, of
the Second Circuit, blames this disparity in summary
judgment rates, at least in part, on the complexity and
inefficiency of the McDonnell Douglas framework.5
With their multiple stages and shifting burdens,
special heightened standards of proof multiply the
opportunities for discrimination plaintiffs’ cases to be
dismissed based on something other than failure to
prove discrimination.
Accordingly, as this Court works to clarify how
substantive employment discrimination law applies,
e.g., Bostock v. Clayton County, 140 S. Ct. 1731 (2020);
Patterson v. Walgreen Co., 140 S. Ct. 685 (2020) (Alito,
J., with whom Thomas, J., and Gorsuch, J., join,
concurring in the denial of certiorari), it should work
to clarify the role of special heightened standards of
proof, if any, in such cases at summary judgment. In
the end, if judges continue granting defendants’
summary judgment motions based on special
heightened standards of proof that neither Congress
nor this Court’s precedent require, it will not matter
who substantive employment discrimination laws are
meant to protect. The protection will be an illusion.
––––––––––––––––––––––––
Of course, the same critiques can be leveled at any of the
similarly complex and distracting special heightened standards
of proof.
5

26

CONCLUSION
This Court should grant this petition.
Respectfully submitted,
Sachin S. Pandya
UNIVERSITY OF
CONNECTICUT
SCHOOL OF LAW
65 Elizabeth Street
Hartford, CT 06105

Amanda A. Farahany
Counsel of Record
Benjamin A. Stark
Grace A. Starling
Catherine A. Gavrilidis
Zachary T. Panter
BARRETT & FARAHANY LLC
1100 Peachtree Street N.E.
Suite 500
Atlanta, GA 30309
(404) 214-0120
amanda@justiceatwork.com

Attorneys for Petitioner
February 8, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MAY 21, 2020
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
May 21, 2020, Decided
No. 19-11872 Non-Argument Calendar
D.C. Docket No. 1:17-cv-00789-CC
RODDIE MELVIN,
Plaintiff-Appellant,
versus
FEDERAL EXPRESS CORPORATION,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
Before ROSENBAUM, GRANT, and LUCK, Circuit
Judges.
PER CURIAM:
Roddie Melvin appeals the district court’s grant
of summary judgment in favor of his former employer,

2a
Appendix A
Federal Express Co. (“FedEx”), on his age-discrimination
and retaliation claims under the Age Discrimination in
Employment Act (“ADEA”), 29 U.S.C. § 623(a)(1), (d).
On appeal, Melvin argues that he created a “convincing
mosaic” of circumstantial evidence showing that FedEx
terminated his employment because of his age. He also
argues that he established a prima facie case of retaliation
and that FedEx’s justifications were pretextual. After
careful review, we affirm.
I.
For purposes of reviewing the district court’s grant
of summary judgment, we present the facts in the light
most favorable to Melvin and resolve all factual disputes
in his favor. See Alston v. Swarbrick, 954 F.3d 1312, 1317
(11th Cir. 2020).
At the time of his termination, Melvin, an AfricanAmerican man over forty years old, had been working for
FedEx for thirty-three years. Nearly thirty of those years
were spent in a management role, during which time he
received several promotions and merit awards and worked
at FedEx facilities around the country.
From 2006 until his termination in November 2016,
Melvin was a managing director based in Atlanta.
He oversaw one of four districts within the southern
region of FedEx’s Air Ground Freight Services Division
(“AGFS”) and supervised eight senior managers, who in
turn supervised various operations managers. Over that
time, Melvin reported to three successive vice presidents:

3a
Appendix A
Reginald Owens, Sr., Ricky Brock, and Joseph Stephens.
Stephens became vice president of the southern region in
April 2016 after Brock retired.
Before being supervised by Stephens, Melvin had
received two disciplinary letters at FedEx. The first letter
came in 2008 from Owens, who issued it for failing to
communicate critical information—damage to aircraft—
to Owens and upper management. Then, on August 12,
2015, Brock issued Melvin written discipline for poor
judgment and failing to meet established standards. As
an “example of [his] poor judgment,” the letter stated
Melvin acted “directly in violation of [Brock’s] instruction”
with regard to ramp security and his personal vehicle.
According to Brock’s testimony, Melvin had continued
to park his personal vehicle inside the secure area at
the airport after Brock told him not to do so. Brock also
cited Melvin’s “failure to communicate major exceptions,”
which referred to issues like flight delays or mishandled
packages.
Despite this discipline, both vice presidents thought
favorably of Melvin. Owens testified that Melvin was a
“sound director” who “ran a good ship” and “took care of
business.” Brock testified that Melvin was respected by
his peers, that he was receptive to changing his style and
approach to leadership, and that, after the August 2015
disciplinary letter, Melvin was on a path to correction, not
a path to termination.
But that changed with Stephens. In May 2016, in his
first one-on-one conversation with Melvin after becoming

4a
Appendix A
his boss, Stephens asked Melvin his age and when he was
going to retire.1 Stephens wondered if Melvin would “be
able to keep up” “given . . . [his] age.” Questioning whether
Melvin “really want[ed] to do this job anymore,” Stephens
suggested he was too old and should “let the young guys
do it.” Stephens fired Melvin within six months of this
conversation.
On June 16, 2016, Stephens issued Melvin a disciplinary
letter for leadership failure. According to the letter,
Melvin falsely reported to Stephens that he had complied
with Stephens’s instruction to issue corrective action to
his management team. The letter further admonished
Melvin for simply forwarding emails from Stephens to
his subordinates rather than “taking a sense of ownership
and demonstrating a leadership role.”
Approximately one month later, on August 11, 2016,
Stephens issued Melvin a disciplinary letter for “continued
deficiencies with your administrative responsibilities and
for failing to anticipate and prevent, or adequately address,
several operational issues.” The letter documented several
administrative deficiencies which, according to the letter,
indicated that Melvin was “approving various activities
without proper review” and “delegating without clear
instruction and subsequent follow up to ensure proper
completion and accuracy.” Further, according to the letter,
Melvin oversaw several delays and service failures, and
an audit showed unacceptable ratings for Melvin’s district.
1. Stephens denies making these comments, but we must credit
Melvin’s testimony for purposes of summary judgment. See Alston
v. Swarbrick, 954 F.3d 1312, 1317 (11th Cir. 2020).

5a
Appendix A
Stephens’s original draft of the August 2016 letter
terminated Melvin’s employment. That was consistent
with FedEx policy, which provided that three written
notifications of deficiency within a twelve-month period
normally results in termination. The August 2016 letter
was Melvin’s third disciplinary letter within a twelvemonth period by one day. After Stephens spoke with
FedEx’s legal department, the letter was modified to
provide that Melvin could retain employment provided
he submitted and adhered to a performance-improvement
agreement. Thereafter, Melvin and Stephens agreed on
a performance-improvement agreement.
Less than 45 days after the August 2016 letter,
Stephens spoke with his supervisor, Senior Vice President
Michael Pigors, and stated that he wanted to give Melvin
a third letter and terminate his employment. Pigors told
Stephens that he needed to give Melvin more time and “a
chance to fix what he needs to fix.” Stephens did not issue
a third letter at that time.
On October 27, 2016, Stephens suspended Melvin
with pay. Then, eight days after that, on November 3,
Stephens issued Melvin a disciplinary/termination letter
for insubordination and leadership failure. Stephens
listed four reasons for the letter: (1) Melvin allowed
Manager Kenneth Baxter to be demoted in violation
of Stephens’s express direction; (2) Melvin repeatedly
parked his personal vehicle in an unapproved location; (3)
Melvin failed to report the mishandling of 141 packages
on October 12; and (4) Melvin failed to eliminate use of a
certain delay code as Stephens had instructed. The letter

6a
Appendix A
explained that Melvin’s employment was terminated
because he had received three letters of deficiency within
a twelve-month period.
After his initial conversation with Stephens and after
receiving each of the three letters described above, Melvin
complained verbally to human resource officials Wanda
English and Shannon Brown. In these conversations,
Melvin reported Stephens’s ageist comments and conveyed
his belief that Stephens had intended to get rid of him from
the outset due to his age and then began “systemically . . .
putting together a list of things” to push him out.
When Melvin first complained to Brown about
Stephens’s comments, Brown “seemed outraged” and
promised that he was “going to be making some calls to
follow up to insure that this doesn’t happen again.” After
the June 2016 letter, Brown again promised Melvin that
he was going to follow up. In their depositions, however,
both Brown and English denied telling Stephens about
Melvin’s complaints. Stephens testified that he learned
that Melvin had complained to Brown after receiving a
disciplinary letter, but he denied knowing that Melvin had
complained of age discrimination.
Melvin filed a charge of discrimination with the Equal
Employment Opportunity Commission on November 11,
2016. He also appealed his termination and complained of
age discrimination through FedEx’s internal processes.
FedEx’s lead counsel investigated Melvin’s complaint
and found “no policy violations,” concluding that Melvin’s
allegations were unsubstantiated. The appeals board

7a
Appendix A
upheld Melvin’s termination in early December 2016.
Melvin’s replacement was nine years younger than Melvin.
II.
Melvin sued FedEx in federal court in March 2017,
alleging, as relevant here, age discrimination and
retaliation under the ADEA, 29 U.S.C. § 623(a)(1), (d). 2
Melvin alleged that Stephens terminated him based on
his age and retaliated against him after he complained
about Stephens’s conduct. After discovery, FedEx filed a
motion for summary judgment, which the district court
granted in full based on a magistrate judge’s report and
recommendation. The district court concluded that Melvin
had not produced sufficient evidence to rebut FedEx’s
proffered legitimate, nondiscriminatory reasons for
his termination or to show that Stephens was aware of
Melvin’s complaints of age discrimination when he made
the decision to terminate Melvin’s employment. Melvin
now appeals.
III.
We review the grant of summary judgment de novo.
Alston, 954 F.3d at 1317. “We view the evidence and all
factual inferences therefrom in the light most favorable to
the non-moving party, and resolve all reasonable doubts
about the facts in favor of the non-movant.” Id. (quotation
2. On appeal, Melvin does not address his claims of race
discrimination and retaliation under 42 U.S.C. § 1981, so we deem
these claims abandoned. See Timson v. Sampson, 518 F.3d 870, 873
(11th Cir. 2008) (issues not briefed on appeal are deemed abandoned).

8a
Appendix A
marks omitted). Summary judgment is appropriate if
there is “no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a).
At the summary-judgment stage, the judge’s function
is not to weigh the evidence but to determine if there is
a “genuine issue for trial.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 249, 106 S. Ct. 2505, 91 L. Ed. 2d
202 (1986). “[T]here is no issue for trial unless there is
sufficient evidence favoring the nonmoving party for a
jury to return a verdict for that party.” Id. Therefore,
summary judgment may be granted “[i]f the evidence is
merely colorable or is not significantly probative.” Id. at
249-50 (citations omitted).
IV.
The ADEA prohibits private employers from firing
an employee who is at least 40 years of age “because
of” the employee’s age. 29 U.S.C. §§ 623(a)(1), 631(a).
“[T]he language ‘because of’ . . . means that a plaintiff
must prove that discrimination was the ‘but-for’ cause of
the adverse employment action.” Sims v. MVM, Inc., 704
F.3d 1327, 1332 (11th Cir. 2013). This standard is met if
the plaintiff’s age played a role in the employer’s decisionmaking process and had a determinative influence on the
outcome. Gross v. FBL Fin. Servs., Inc., 557 U.S. 167, 176,
129 S. Ct. 2343, 174 L. Ed. 2d 119 (2009).
We ordinarily evaluate ADEA claims based on
circumstantial evidence, which is what Melvin relies on

9a
Appendix A
here, under the burden-shifting framework established
in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93
S. Ct. 1817, 36 L. Ed. 2d 668 (1973). Sims, 704 F.3d at
1333. Alternatively, “the plaintiff will always survive
summary judgment if he presents circumstantial evidence
that creates a triable issue concerning the employer’s
discriminatory intent.” Id.
“A triable issue of fact exists if the record, viewed in a
light most favorable to the plaintiff, presents a convincing
mosaic of circumstantial evidence that would allow a jury
to infer intentional discrimination by the decision maker.”
Id. (quotation marks omitted). A plaintiff may establish
a “convincing mosaic” with “evidence that demonstrates,
among other things, (1) suspicious timing, ambiguous
statements . . . , and other bits and pieces from which
an inference of discriminatory intent might be drawn,
(2) systematically better treatment of similarly situated
employees, and (3) that the employer’s justification is
pretextual.” Lewis v. City of Union City, 934 F.3d 1169,
1185 (11th Cir. 2019) (quotation marks omitted).
Melvin contends that he demonstrated such a
convincing mosaic with evidence of discriminatory
comments by Stephens and of pretext in FedEx’s rationale.
The question before us, then, is whether Melvin’s evidence
is sufficient to raise a reasonable inference that FedEx
discriminated against him because of his age. 3 Chapter 7
3. FedEx disputes whether Melvin established a prima facie
case of discrimination under McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973). Its arguments
on this point, however, relate primarily to its proffered reasons

10a
Appendix A
Trustee v. Gate Gourmet, Inc., 683 F.3d 1249, 1256 (11th
Cir. 2012) (“Whatever form it takes, if the circumstantial
evidence is sufficient to raise a reasonable inference that
the employer discriminated against the plaintiff, summary
judgment is improper.” (quotation marks omitted)).
A. Discriminatory Comments
Ageist comments that are not direct evidence of
discrimination may still “provide circumstantial evidence
to support an inference of discrimination.” Ross v. Rhodes
Furniture, Inc., 146 F.3d 1286, 1291 (11th Cir. 1998)
(discussing racial comments). In Damon v. Fleming
Supermarkets of Florida, Inc., for example, we held that
a supervisor’s comment that he wanted “aggressive, young
men” to be promoted was probative as to whether age
animus motivated the decision to terminate the plaintiff.
196 F.3d 1354, 1362-63 (11th Cir. 1999). Likewise, in
Alphin v. Sears, Roebuck & Co., we stated that a comment
by a supervisor that the plaintiff was “too old” “certainly
supports a showing of discriminatory intent if we interpret
the remark in the light most favorable to Alphin.” 940
F.2d 1497, 1501 (11th Cir. 1991); see also Mora v. Jackson
Mem’l Found., Inc., 597 F.3d 1201, 1204-05 (11th Cir. 2010)
for Melvin’s termination and therefore are more appropriately
addressed at the pretext stage of the analysis. See Alvarez v. Royal
Atl. Developers, Inc., 610 F.3d 1253, 1265 (11th Cir. 2010). In any
case, even assuming FedEx is correct that Melvin failed to create a
prima facie case, we would still analyze whether he created a triable
issue of discrimination based on a “convincing mosaic” theory, which,
at least in this case, is largely indistinguishable from our ordinary
pretext analysis.

11a
Appendix A
(comments by a supervisor that a plaintiff is “too old” can
be circumstantial evidence of age discrimination).
Here, we agree with Melvin that Stephens’s ageist
remarks to him, if credited, are probative as to whether
age animus motivated the decision to terminate his
employment. See Damon, 196 F.3d at 1362-63. According
to Melvin, Stephens pressured him to resign in their
first one-on-one meeting because of his age, questioning
whether he “wanted to continue to do this” “given . . .
[his] age” and stating that he should “let the young guys
do it.” Approximately one month after this conversation,
Stephens issued Melvin a disciplinary letter. And within
six months of this conversation, Stephens fired him. Given
the “substance, context, and timing” of the comments,
id. at 1362, they “certainly support[] a showing of
discriminatory intent if we interpret the remark[s] in the
light most favorable to [Melvin],” Alphin, 940 F.2d at 1501.
Nevertheless, the comments alone are not sufficient
to meet Melvin’s burden of creating a triable issue of
discriminatory intent, nor do we understand Melvin
to argue as much. E.g., Crawford v. City of Fairburn,
Ga., 482 F.3d 1305, 1309 (11th Cir. 2007) (“Crawford
erroneously argues that evidence of a discriminatory
animus allows a plaintiff to establish pretext without
rebutting each of the proffered reasons of the employer.”).
In Damon, for example, the plaintiff presented additional
evidence demonstrating that the employer’s proffered
reasons were pretextual, which, when combined with the
discriminatory comments, was enough to create a triable
issue of discrimination. See Damon, 196 F.3d at 1363 (“[A]

12a
Appendix A
reasonable jury could conclude that the specific reasons
for termination given by Fleming were a pretext.”); see
also Alphin, 940 F.2d at 1501 (finding that other evidence
of pretext, combined with the discriminatory comment,
created a triable issue of discrimination). Accordingly,
we consider the ageist remarks along with Melvin’s other
pretext evidence to determine whether there is a triable
issue of discrimination.
B. Pretext in Employer’s Rationale
A plaintiff may create an inference of discriminatory
intent “by showing that [the employer’s] proffered reasons
are not credible.” Alvarez v. Royal Atl. Developers, Inc.,
610 F.3d 1253, 1265 (11th Cir. 2010). To show than an
employer’s reason is not credible, the plaintiff “must
meet that reason head on and rebut it,” Chapman v.
AI Transp., 229 F.3d 1012, 1030 (11th Cir. 2000) (en
banc), demonstrating “weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in the
employer’s rationale.” Holland v. Gee, 677 F.3d 1047,
1055-56 (11th Cir. 2012) (quotation marks omitted). But
plaintiffs may not recast the reason or merely quarrel with
its wisdom. Chapman, 229 F.3d at 1030. It is not our role to
second-guess the business decisions of employers. Id. Our
concern is whether an employment decision was motivated
by unlawful discriminatory animus, not whether the
decision was prudent or fair, and we limit ourselves “to
whether the employer gave an honest explanation of its
behavior.” Id. (quotation marks omitted).

13a
Appendix A
FedEx claims that it terminated Melvin’s employment
because of a pattern of insubordination and leadership
failure, as documented in the three disciplinary letters
Stephens issued Melvin. Melvin’s deficiencies, according to
FedEx, included administrative failures, insubordination,
failure to manage his subordinates, and failure to timely
notify Stephens of important matters. FedEx further
argues that Melvin had been disciplined for similar
deficiencies before Stephens became his supervisor.
Melvin maintains that a jury could conclude that FedEx’s
proffered reasons—as reflected in the three disciplinary
letters issued by Stephens—were pretextual.4
1. June 16, 2016, Letter
The June 16, 2016, disciplinary letter related to various
past-due administrative matters that were pending when
Stephens became vice president of the southern region.
Early in his tenure, Stephens issued guidance to his
managing directors that he expected them to bring their
districts up to date and to counsel their senior managers
that timely compliance would be enforced with more
severe discipline going forward. According to Stephens,
4. In several footnotes, Melvin makes conclusory assertions
that the district court violated Rule 56(f)(2), Fed. R. Civ. P., by
granting summary judgment on a ground not presented in FedEx’s
motion for summary judgment. But these passing references are
insufficient to raise that issue for appeal. See Sapuppo v. Allstate
Floridian Ins. Co., 739 F.3d 678, 681 (11th Cir. 2014) (“We have long
held that an appellant abandons a claim when he either makes only
passing references to it or raises it in a perfunctory manner without
supporting arguments and authority.”). Nor do we believe the court
went beyond the grounds raised by FedEx.

14a
Appendix A
he instructed the managing directors “to make sure that
everyone gets a documented OLCC”—a form of written
counseling—”that if this happens again in the future, you
will receive discipline up to and including termination,”
and gave them a deadline of May 31. On or around May 18,
Melvin wrote him a memorandum stating that everything
had been taken care of. Stephens asked his assistant to
take a closer look, and “what he said was completed, was
not completed.” Giving Melvin the “[b]enefit of the doubt,”
Stephens waited a couple weeks and checked again, but
it was “[s]till not done.” At that point, Stephens testified,
he decided to discipline Melvin for failing to comply with
Stephens’s instruction and mispresenting that he had
done so.
Melvin has not shown pretext with respect to this
issue. The record shows that Melvin sent Stephens a
memorandum on May 18, 2016, documenting the corrective
actions that had been taken for all past-due items. Further,
Melvin testified that he relied on his senior managers to
issue written counseling to their subordinates but later
learned that his senior managers “had not issued the
written counseling.” In order words, Melvin effectively
admitted that his May 18 memorandum to Stephens was
not accurate.
Nor was it unreasonable for Stephens to hold Melvin
responsible for the inaccurate memorandum and the
failure of his subordinates. Given that Stephens and his
assistant were able to review whether the memorandum
was accurate, there appears to be no reason Melvin
could not have done the same thing before submitting

15a
Appendix A
it to Stephens. And while Melvin claims that other
managing directors also had past-due matters and were
not disciplined, the evidence is undisputed that the other
managing directors got their districts up to date and
accurately reported doing so. Accordingly, Melvin has not
demonstrated pretext with respect to this matter.
2. August 11, 2016, Letter
The August 11, 2016, letter disciplined Melvin
for “continued deficiencies with [his] administrative
responsibilities and for failing to anticipate and present,
or adequately address, several operational issues.” The
letter documented several administrative deficiencies
which, according to the letter, indicated that Melvin was
“approving various activities without proper review” and
“delegating without clear instruction and subsequent
follow up to ensure proper completion and accuracy.”
These included inaccurate travel and expense reports
and an inaccurate requisition for extra staff. Further,
according to the letter, Melvin oversaw several delays and
service failures and failed to timely record an injury, and
an audit showed unacceptable ratings for Melvin’s district.
Melvin contends that the matters identified in the
letter did not warrant discipline and that there is a factual
dispute as to the frequency of his paperwork errors. But
while Melvin believed that his error rate was lower than
that of other managing directors in the southern region,
there is no evidence that another managing director had
similar errors during the same time period and was not
disciplined, let alone that another managing director

16a
Appendix A
who had recently been disciplined for delegating without
clear instruction and failing to ensure proper completion
and accuracy had been. Nor does Melvin even address
the various other matters identified in the August 2016
letter. He essentially argues that Stephens’s expectations
were unreasonable and unfair, but that is not enough to
establish a violation of the ADEA, see Chapman, 229
F.3d at 1030, and he presents no evidence from which a
reasonable jury could conclude that the manifold issues
listed in the August 2016 letter were false or pretextual.
3. November 3, 2016, Letter
Stephens listed four reasons for issuing the November
2016 letter terminating Melvin’s employment. We address
each in turn.
Demotion of Ken Baxter
The November 2016 letter first asserts that Melvin
violated Stephens’s express instruction not to demote
Baxter by permitting one of his senior managers to
demote Baxter and “place him on a 90 day [personal leave
of absence] dated September 11, 2016.” Stephens testified
that Melvin took it upon himself to demote Baxter, without
involving human resources, in violation of both Stephens’s
express direction and FedEx policy.
In the light most favorable to Melvin, the relevant
context is as follows. Baxter was a South Carolina
operations manager within Melvin’s district who wanted
to transfer to Indianapolis, where his wife had recently

17a
Appendix A
moved. After bidding unsuccessfully on management
positions in Indianapolis, Baxter began applying for hourly
positions. But because of the way FedEx categorizes
employees, Baxter was always ranked lower than other
applicants who were hourly employees. On August 26,
2016, Baxter emailed his senior manager, Fred Laskovics,
to ask for help. Laskovics forwarded the email to George
Sims, the human-resources personnel representative for
that region, who responded, copying Melvin, that Baxter
needed to request a “step down from his current position
and be placed in an open Handler or Material position.
He can then be placed on [leave of absence] from here.”
Melvin discussed the matter with Stephens, who said
he would help facilitate the transfer and that someone
from Indianapolis would be sending a “PCN” number to
enable Baxter to make the move. Stephens told Melvin not
to demote Baxter in the meantime. Melvin waited three
or four weeks without hearing anything.
Meanwhile, Laskovics met with Baxter to go over
Sims’s instructions, and Baxter said he would apply for
an hourly position in South Carolina and then request a
personal leave of absence to apply for jobs in Indianapolis.
Baxter then did so and, as the only applicant for the
position, was hired as an hourly employee on September
11, 2016. Baxter also completed paperwork to request a
personal leave of absence, which Melvin granted. Neither
Melvin nor Laskovics demoted Baxter, according to
Laskovics.

18a
Appendix A
In mid-September 2016, Stephens emailed Melvin and
informed him that Baxter was applying for management
positions and, despite his prior statements to Laskovics,
was not interested in a handler position. Stephens wrote,
“This is why I explicitly advised you NOT to simply
demote and place this individual on a PLOA. He’s not
bidding on Handler or Material Handler positions, despite
how you handled. In your situation, I don’t understand
why you wouldn’t comply with my direction back on 09/01.”
Melvin wrote back that “this guy has cost me more than
you know” and that he was simply trying to help Baxter
and “thought [he] was doing the right thing.”
Melvin testified that soon after, he and Stephens
spoke, and Melvin explained what had happened and
why. Stephens said he understood what Melvin had
done and that he was “okay with it,” and he did not give
“any counseling other than to say let’s make sure this
doesn’t happen again.” Stephens did not “state or imply
that [Melvin] had been insubordinate or that [he] had
committed a discipline-worthy offense.”
We conclude that Melvin has not shown pretext as to
the Baxter matter. To be sure, Melvin presented some
evidence to contradict the factual grounds asserted by
Stephens. Testimony from Melvin and Laskovics, the
senior manager most directly involved with the Baxter
matter, established that Melvin and Laskovics received and
followed guidance from human resources about Baxter’s
transfer request, did not demote Baxter, and granted a
leave of absence only after Baxter had, consistent with
FedEx policy, bid on and been hired for a handler position

19a
Appendix A
in South Carolina. Further, Stephens testified that it was
not inappropriate for a managing director to grant a leave
of absence requested by an employee.
Despite this evidence, we agree with the district
court’s reasoning that, even if Stephens was mistaken as
to the actual facts of what happened with Baxter, there
was “no evidence to refute that Stephens had an honest,
good-faith belief that [Melvin] had violated his directive
not to demote Baxter.” See Smith v. Papp Clinic, P.A.,
808 F.2d 1449, 1452-53 (11th Cir. 1987) (“[I]f the employer
fired an employee because it honestly believed that the
employee had violated a company policy, even if it was
mistaken in such belief, the discharge is not ‘because of
[discrimination].’”).
On September 14, 2016, Stephens wrote an email
accusing Melvin of disregarding his direction not to
demote Baxter. There is no evidence that, at the time
he sent the email, he did not in good faith believe that
accusation. Further, we agree with the district court
that “there is no evidence that Stephens was aware
Baxter independently applied for the hourly position in
Columbia, South Carolina.” In response, Melvin points
to his testimony that, after the September 14 email, he
spoke with Stephens and explained what had happened,
and Stephens said he understood and was “okay with it.”
But the court persuasively explained that Melvin could
not have told Stephens how Baxter got into an hourly
position because Melvin did not know those facts until
Laskovics’s deposition for this case. And Melvin’s mere
denial to Stephens—that he did not demote Baxter—is not

20a
Appendix A
enough, where there is no evidence that Stephens learned
of information to corroborate that denial. Accordingly,
Melvin has not established pretext with regard to the
Baxter matter. 5
Unapproved Parking
The November 2016 termination letter next asserted
that, despite being “advised by both Corporate Security
and VP Brock that [he] w[as] not permitted to park
inside the perimeter fence at the FOPRT facility,” Melvin
continued to park his personal vehicle “in the unapproved
location.”
Undisputed record evidence shows that, in August
2015, Melvin’s prior supervisor, Brock, issued a letter
disciplining Melvin for “creat[ing] direction to security
that was directly in violation of [Brock’s] instruction” with
regard to ramp security and his personal vehicle. Brock
testified that the discipline was based on Melvin’s parking
of his car inside the secure area after Brock told him not
to do so. Then, on September 20, 2016, Stephens received
an email from Katina Burchfield, the managing director
of security, memorializing a conversation between her
and Stephens a few days earlier. According to the email,
5. We do not consider the October 27, 2016, email Stephens
received from George Sims, in which Sims wrote that Melvin had
admitted to Sims that he violated Stephens’s instruction not to demote
Baxter. Because there was evidence that Stephens had decided to
terminate Melvin’s employment by mid-October, a reasonable jury
could conclude that any information learned by Stephens on or after
that date played no role in the employment decision.

21a
Appendix A
Burchfield had called Stephens to discuss “unauthorized
employee parking.” Burchfield reported that Melvin had
been parking his personal vehicle inside the secure area,
and that when confronted by another security employee,
Melvin had stated that “he would discontinue.” Yet as
indicated in the November 2016 termination letter,
Melvin parked his personal vehicle in the secure area nine
additional times in less than a two-month period.
Melvin has not demonstrated pretext with regard to
this issue. Melvin claims that he followed all appropriate
parking rules and parked inside the security fence
only with permission from security. But at best he has
shown that security was internally conflicted as to the
appropriateness of Melvin’s parking of his personal vehicle
inside the secure area. And it remains undisputed that
Melvin was disciplined for disregarding the instruction
of his direct supervisor not to park in the secure area,
that no other supervisor had told Melvin he could park
in the secure area, and that, according to the email
Stephens received, Melvin continued to park in the secure
area even after telling security he “would discontinue.”
Accordingly, Melvin’s evidence is insufficient to show that
his unauthorized parking was a false reason or a pretext
for discrimination.
Mishandling of Packages
Third, according to the November 2016 letter, Melvin
failed to report to the Regional Office the mishandling
of 141 packages, and when questioned about why it was
not reported, Melvin did not know the full impact, was

22a
Appendix A
unaware of the root cause, and claimed that “[he] didn’t
think it was any big deal.”
Melvin denies claiming that it was not a big deal,
but he has not otherwise shown that this reason was
false or pretextual. While Plaintiff essentially blames a
subordinate manager for failing to report the incident to
Stephens and states that he explained to Stephens that
this manager was responsible for that failure to report, he
does not dispute that the service failure was not promptly
reported by him or one of his subordinates. The fact that
Stephens held Melvin responsible for the failure to report
the exception that occurred within his region is a business
decision and is not evidence of pretext. See Chapman, 229
F.3d at 1030. Melvin presents no evidence of a comparator
who was treated more favorably for the same conduct.
We also note that Melvin’s prior supervisors raised
similar issues with his performance, and that Melvin was
disciplined in 2008 for failing to report a service failure.
Accordingly, Melvin has not shown pretext as to this issue.
Use of Delay Code
Finally, the November 2016 letter states that, despite
instructions to “discontinue the application of the TD delay
code due to the excessive use identified in [his] District
(97 of 1,420 flights or 6.83% of all departures),” Melvin’s
district “continued to utilize the TD delay code 19 more
times on 268 flights or 7.09% of all departures; actually
increasing the frequency of use.”

23a
Appendix A
The relevant context is this. FedEx used various codes
to classify the cause of flight delays. The “TD” code was
used to note a delay caused by a discrepancy between the
pilot’s clock and the ramp’s clock. At some point, FedEx
adopted a new time-keeping system that was intended
to synchronize employees’ clocks and eliminate time
discrepancies.
Stephens testified that, in light of the new system,
he instructed his managing directors to eliminate usage
of the TD delay code and to more accurately code the
specific issue—such as weather, crew, etc.—that caused
a delay. He stated that Melvin’s district was using the TD
delay code excessively and that the high rate of use was
“covering up an operational deficiency.” Melvin argues
that Stephens never instructed him to eliminate usage
of the code immediately. Rather, the instruction was to
reduce it, and Stephens, according to Melvin, understood
this to be Melvin’s understanding.
Melvin has not shown pretext as to this issue. Even
assuming Stephens instructed his managing directors
to reduce, rather than eliminate, use of the code, and
that some use of the code remained necessary, Stephens
explained in the warning/termination letter that Melvin’s
district had actually increased the frequency of use of
the TD delay code. Melvin points to no evidence creating
a genuine issue of material fact concerning whether
his district increased the use of that code. Nor does he
identify evidence suggesting that the other managing
directors under Stephens were unable to reduce use of
the TD delay code within their districts, or that another

24a
Appendix A
managing director was not disciplined despite overseeing
an increase in its use. So even in the light most favorable
to Melvin, the undisputed evidence still shows that Melvin
failed to implement Stephens’s instructions. Accordingly,
there is no genuine issue to go before a jury relating to
the TD delay code.
C. Conclusion
Although Melvin has presented some evidence
that Stephens, his supervisor, made ageist remarks
to him within six months of his termination, he has
not established pretext in FedEx’s rationale for the
termination decision. We therefore conclude that Melvin
has not presented sufficient circumstantial evidence for
a reasonable jury to conclude that his age was a “but-for”
cause of the termination decision. See Gross, 557 U.S. at
176; Sims, 704 F.3d at 1332-33; see also Crawford, 482
F.3d at 1309. Accordingly, we affirm the district court’s
grant of summary judgment on Melvin’s claim of age
discrimination.
V.
Turning to Melvin’s retaliation claim, the ADEA
prohibits private employers from retaliating against
employees who “opposed any practice” made unlawful by
the ADEA. 29 U.S.C. § 623(d). To succeed on a retaliation
claim, the plaintiff must prove a causal connection between
his protected activity and the alleged retaliatory conduct.
Weeks v. Harden Mfg. Corp., 291 F.3d 1307, 1311 (11th Cir.
2002). This generally requires a showing “that the decision

25a
Appendix A
maker was aware of the protected conduct at the time of
the adverse employment action.” Brungart v. BellSouth
Telecomms., Inc., 231 F.3d 791, 799 (11th Cir. 2000). That
requirement rests on the common-sense notion that “[a]
decision maker cannot have been motivated to retaliate
by something unknown to him.” Id.
Therefore, even in cases where there is temporal
proximity between the protected conduct and the adverse
employment action, that proximity “alone is insufficient
to create a genuine issue of fact as to causal connection
where there is unrebutted evidence that the decision
maker did not have knowledge that the employee engaged
in protected conduct.” Id. In other words, when there is
“unrefuted testimony of the decision maker that he knew
nothing of the protected conduct,” temporal proximity
alone is not a sufficient basis to allow a factfinder to decide
“that the decision maker is lying.” Id. Nor can knowledge
held by other corporate officers be imputed either to the
corporation or to the decision maker. Id.
Here, the district court properly granted summary
judgment on Melvin’s retaliation claim. Stephens, the
decision maker, provided unrefuted testimony that he knew
nothing about Melvin’s complaints of age discrimination
until after this lawsuit was filed. In addition, English and
Brown, the human-resources officials to whom Melvin
complained about Stephens, testified that they did not
tell Stephens about Melvin’s complaints. While Melvin
maintains that a jury could infer Stephens’s knowledge of
Melvin’s complaints of age discrimination from the timing
of Stephens’s disciplinary actions, we cannot, in light of

26a
Appendix A
Stephens’s unrefuted testimony, submit the issue to the
jury based on temporal proximity alone. See id. Nor can
English’s or Brown’s knowledge be imputed either to
Stephens or FedEx. See id. Accordingly, Melvin has not
presented sufficient evidence of a causal connection to
withstand summary judgment.
VI.
In sum, we affirm the entry of summary judgment in
favor of FedEx on Melvin’s claims of age discrimination
and retaliation.
AFFIRMED.

27a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA, ATLANTA DIVISION,
DATED MAY 1, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF GEORGIA, ATLANTA DIVISION
RODDIE MELVIN,
Plaintiff,
vs.
FEDERAL EXPRESS CORPORATION,
Defendant.
CIVIL ACTION NO.
1:17-CV-0789-CC
ORDER
This is an employment discrimination case in which
Plaintiff Roddie Melvin (“Melvin” or “Plaintiff”) alleges
claims of race discrimination and retaliation in violation
of 42 U.S.C. § 1981 and age discrimination and retaliation
in violation of the Age Discrimination in Employment Act
of 1967, 29 U.S.C. § 621 et seq. (“ADEA”). This matter is
before the Court on the Final Report and Recommendation
(the “R&R”) [Doc. No. 95] issued by Magistrate Judge J.
Clay Fuller on January 28, 2019. Magistrate Judge Fuller
recommends that the Court grant Defendant Federal

28a
Appendix B
Express Corporation’s Motion for Summary Judgment
(the “Motion for Summary Judgment”) [Doc. No. 57] and
deny as moot Defendant’s Motion to Exclude Testimony
of Lorene F. Schaefer, Esq. (the “Motion to Exclude”)
[Doc. No. 90].
After receiving an extension of time, Plaintiff filed
Plaintiff’s Objections to the Magistrate Judge’s Report &
Recommendation [Doc. No. 99] on March 1, 2019. Plaintiff
objects to the recommendation that summary judgment
be granted as to the age discrimination and retaliation
claims under the ADEA but does not specifically object
to the recommendation that summary judgment be
granted as to the race discrimination and retaliation
claims under Section 1981. (R&R at 6.) Defendant Federal
Express Corporation (“Defendant” or “FedEx”) has
filed a Response to Plaintiff’s Objections to Report and
Recommendation [Doc. No. 100].
For the reasons set forth below, the Court adopts the
R&R, with the modifications set forth herein. Defendant’s
Motion for Summary Judgment is due to be granted, and
the Motion to Exclude is due to be denied as moot.
I.

STANDARD OF REVIEW

After reviewing a magistrate judge’s findings and
recommendations submitted pursuant to 28 U.S.C. § 636(b)
(1)(B), a district judge may accept, reject, or modify the
findings or recommendations. 28 U.S.C. § 636(b)(1); see
also Fed. R. Civ. P. 72(b)(3). A party challenging a report
and recommendation must “file . . . written objections

29a
Appendix B
which shall specifically identify the portions of the
proposed findings and recommendation to which objection
is made and the specific basis for objection.” Macort v.
Prem, Inc., 208 F. App’x 781, 783 (11th Cir. 2006) (citation
and internal quotation marks omitted); see also Fed. R.
Civ. P. 72(b)(2). A district judge “shall make a de novo
determination of those portions of the report or specified
proposed findings or recommendations to which objection
is made.” Jeffrey S. v. State Bd. of Educ. of Ga., 896 F.2d
507, 512 (11th Cir. 1990) (citation omitted). The district
judge must “give fresh consideration to those issues to
which specific objection has been made by a party.” Id.
“Frivolous, conclusive, or general objections need not be
considered by the district court.” Marsden v. Moore, 847
F.2d 1536, 1548 (11th Cir. 1988) (citation omitted). Those
portions of a report and recommendation to which an
objection has not been made are reviewed for plain error.
See United States v. Slay, 714 F.2d 1093, 1095 (11th Cir.
1983); see also Fed. R. Civ. P. 72(a).
II. DISCUSSION
Plaintiff, who was a FedEx employee for 32 years
and was terminated after receiving three disciplinary
letters within a twelve-month period, objects to the
R&R on the specific grounds that the Magistrate Judge:
(1) failed to consider Plaintiff ’s (the non-movant’s)
evidence – including evidence that the supervisor who
disciplined and terminated him, Joseph Stephens, was
aware of Plaintiff’s protected complaints – and to make
all justifiable inferences in the non-movant’s favor; (2)
weighed evidence and made credibility determinations –

30a
Appendix B
tasks that are reserved for the jury and not the Court; (3)
misunderstood or mischaracterized Plaintiff’s arguments,
thereby failing to address them; (4) erred in holding that a
party’s own statements cannot defeat summary judgment
if considered “self-serving”; (5) erred in incorrectly stating
that Plaintiff’s burden at summary judgment is not met
under the traditional McDonnell Douglas framework if his
evidence creates a genuine issue that the prima facie case
is met and that Defendant’s justification for the adverse
action is false; (6) erred in failing to address Defendant’s
failure to respond to Plaintiff’s Statement of Additional
Facts in violation of this Court’s Local Rules, which
requires treatment of Plaintiff’s facts as conceded for
the purpose of summary judgment; (7) erred in rejecting
relevant circumstantial evidence of age discrimination on
the grounds that remarks of decisionmaker were “stray
remarks”; (8) erred in failing to consider the expert report
of Lorene F. Schaefer, Esq. and how it sheds light on the
way Defendant enabled discrimination and retaliation;
and (9) erred in excluding so-called “me too” evidence in
the form of prior accusations of discrimination against
Stephens by FedEx employees.
A.

Consideration of Plaintiff’s Evidence

In connection with Plaintiff’s first objection, Plaintiff
argues that the Magistrate Judge failed to consider: (1)
evidence of Plaintiff’s successful, decades-long career
with FedEx before Stephens became his supervisor; (2)
evidence from which a reasonable jury could conclude
Stephens was motivated by retaliation to discipline
and terminate Plaintiff; and (3) the evidence of pretext

31a
Appendix B
related to Plaintiff’s parking inside the security fence,
Plaintiff’s use of the TD Delay Code, and the demotion of
a subordinate manager, Ken Baxter. The Court rejects
Plaintiff’s arguments.
1.

Plaintiff’s Career with FedEx

As an initial matter, the Magistrate Judge did
consider the history of Plaintiff’s career with FedEx
before Stephens became his supervisor, including both
Plaintiff’s career highlights and Plaintiff’s occasional
performance issues. (See R&R at 2-5.) While Plaintiff’s
job was not in jeopardy at the time Stephens became his
manager in April 2016, Plaintiff had received a written
Performance Reminder from his prior supervisor, VP
Ricky Brock, on August 12, 2015. (Doc. No. 90-13 at 2-3.)
After the issuance of the Performance Reminder, Plaintiff
showed some improvement but had not “conquered the
problem when [Brock] left” and “was still struggling”
with respect to some of the issues identified. (Deposition
of Troy Ricky Brock (“Brock Dep”) [Doc. No. 63] at
52:8-53:7.) Thus, Plaintiff is correct in pointing out that
he had only two disciplinary letters over the 32 years he
worked for FedEx before Stephens became his manager
and that he was not on a path to termination, but it also
is true that Plaintiff already was having performance
issues at the time Stephens became his manager. This is
not evidence that the Magistrate Judge was required to
disregard. Thus, the Court believes that the R&R includes
an accurate description of Plaintiff’s career with FedEx,
and the Magistrate Judge properly considered the history
of Plaintiff’s career in accordance with the summary
judgment standard.

32a
Appendix B
2.

Retaliatory Motivation of Stephens to
Discipline and Terminate Plaintiff

Plaintiff next argues that a reasonable jury would
be entitled to conclude that Stephens was motivated by
retaliation because of Plaintiff’s protected complaints
against him. Here, there is no dispute that Plaintiff
verbally complained to Human Resources about the letters
issued by Stephens being discriminatory and retaliatory
and that Plaintiff sent an email between the time of his
suspension and termination making the same complaints.
Further, the evidence indicates that these verbal and email
complaints of retaliatory and discriminatory conduct were
sufficient to trigger an investigation, according to FedEx’s
own policies. Plaintiff’s decision not to enter FedEx’s
Guaranteed Fair Treatment Procedure/EEO Complaint
process is not evidence that should be construed to suggest
that Stephens was not motivated by retaliation, especially
since Plaintiff did complain that Stephens’s conduct was
retaliatory. However, the missing link with respect to
Plaintiff’s retaliation claim is Plaintiff’s inability to point
to evidence that Stephens was aware of his complaints.
“In order to satisfy the ‘causal link’ prong of a prima
facie retaliation case, a plaintiff must, at a minimum,
generally establish that the defendant was actually aware
of the protected expression at the time the defendant took
the adverse employment action.” Raney v. Vinson Guard
Serv., Inc., 120 F.3d 1192, 1197 (11th Cir. 1997) (citation
omitted). While “awareness of protected expression
may be established based on circumstantial evidence,”
the Eleventh Circuit “require[s] plaintiffs to show a

33a
Appendix B
defendant’s awareness with more evidence than mere
curious timing coupled with speculative theories.” Id.
(citation omitted). The Court has reviewed and considered
the evidence upon which Plaintiff relies to argue that a
reasonable jury could find that Stephens was aware of his
complaints against him, but the Court finds that Plaintiff’s
evidence and arguments present nothing more than
“curious timing coupled with speculative theories.” Id. The
Court finds no error in the Magistrate Judge’s analysis
of this issue, and the Court agrees that “the record does
not indicate that Stephens knew about any of Plaintiff’s
complaints such that his decision to discipline or terminate
Plaintiff was based on that knowledge.” (R&R at 45.)
3.

Pretext

Plaintiff next asserts that the Magistrate Judge
ignored evidence he presented to establish that several of
the reasons articulated by Stephens as forming the basis
for Plaintiff’s final disciplinary letter and termination were
actually “falsehoods” and a pretext for discrimination
and retaliation. Plaintiff specifically complains about
the analysis of his parking inside the security fence, his
use the of the TD Delay Code, and the demotion of Ken
Baxter. These issues also are the subject of Plaintiff’s fifth
objection to the R&R (regarding the analysis of whether
the justification for the adverse action was false), and the
Court addresses these issues in detail in Section II.E.
of this Order. As to this objection specifically, however,
the Court disagrees that the Magistrate Judge ignored
Plaintiff’s evidence.

34a
Appendix B
The Mag istrate Judge meticulously analyzed
Plaintiff’s claims and the evidence presented by Plaintiff
in support of those claims, and he applied the appropriate
law to the allegations and evidence. Plaintiff generally
contends that the violations cited by Stephens were
immaterial and/or baseless. However, as the Court will
explain below, the violations were not baseless. Further,
the materiality of the violations or mistakes, as Plaintiff
characterizes them, is really a matter of business
judgment that is inappropriate for the Court to review. See
Elrod v. Sears, Roebuck & Co., 939 F.2d 1466, 1470 (11th
Cir. 1991). The Court rejects Plaintiff’s objection that the
Magistrate Judge ignored Plaintiff’s evidence of pretext.
B. Weighing Evidence and Making Credibility
Determinations
The focus of Plaintiff’s next objection is on whether the
Magistrate Judge improperly weighed evidence and made
credibility determinations. In this regard, Plaintiff argues
the Magistrate Judge erred in determining that: (1) no
jury could find Stephens’s ageist remarks to be evidence of
age discrimination because Plaintiff’s co-workers, and his
replacement, were over 50 years old; (2) no reasonable jury
could find the disciplinary letters were discriminatory or
retaliatory because Plaintiff did not formally contest them
in writing; (3) no reasonable jury could find that Stephens
was aware of Plaintiff’s complaints against him; (4) no
reasonable jury would believe Plaintiff’s explanation for
his continued use of the TD Delay Code, which was that
Stephens had instructed Plaintiff and other Managing
Directors to reduce usage of the code, not to eliminate

35a
Appendix B
usage all together and immediately; and (5) Plaintiff
demoted a subordinate manager, Ken Baxter, against
Stephens’s instructions.
1.

Ageist Remarks

Plaintiff points to one occasion when Stephens made
ageist remarks. In the regard, Plaintiff points to evidence
that Stephens, during his very first conversation with
Plaintiff in May 2016, asked Plaintiff his age, inquired
about whether he was going to retire, and encouraged
him to let the “young guys” take over. Plaintiff received a
warning letter the following month regarding various past
due or delinquent managerial tasks and Plaintiff’s false
representation that he had counseled his subordinates
regarding the delinquent tasks. However, Plaintiff was
not terminated until over five months after Stephens
made the stray remarks. The Magistrate Judge found
that the remarks were too remote in time from Plaintiff’s
termination to be probative evidence of discriminatory
animus.
The Magistrate Judge likewise noted that other
managing directors in Plaintiff’s region were over 50
years old and that Plaintiff’s replacement also was over
50 years old. By noting these facts, Plaintiff asserts that
the Magistrate Judge impermissibly made credibility
determinations and weighed the evidence, but Eleventh
Circuit authority instructs that allegedly discriminatory
remarks are to be viewed “in conjunction with entire
record” to determine whether the remarks constitute
circumstantial evidence of a discriminatory attitude. Ross

36a
Appendix B
v. Rhodes Furniture, Inc., 146 F.3d 1286, 1292 (11th Cir.
1998). The Magistrate Judge’s consideration of the ages
of Plaintiff’s coworkers and replacements, among other
evidence, was not improper.
2.

Plaintiff ’s Decision Not to Contest
Disciplinary Letters

Plaintiff contends that the Mag istrate Judge
improperly weighed the evidence when he determined
that no reasonable jury could find Stephens’s disciplinary
letters to be discriminatory or retaliatory due to
Plaintiff’s failure to contest the disciplinary letters as such
through FedEx’s Guaranteed Fair Treatment Procedure/
EEO Complaint process. While the Magistrate Judge
acknowledged that Plaintiff’s failure to take advantage of
this process was not dispositive of Plaintiff’s claims, the
Court agrees with Plaintiff that this is an instance of the
Magistrate Judge not construing the evidence in a light
most favorable to Plaintiff, as the non-moving party. It is
undisputed that Plaintiff complained that Stephens issued
the letters with discriminatory and retaliatory intent. The
Court is aware of no legal authority supporting a finding
that no reasonable juror could infer the letters were issued
with discriminatory or retaliatory intent simply because
Plaintiff did not make the complaints in writing or did not
go through the Guaranteed Fair Treatment Procedure/
EEO Complaint process. Still, Defendant is entitled to
summary judgment on Plaintiff’s claims because evidence
of pretext is lacking and there likewise is insufficient
circumstantial evidence of discrimination to constitute a
convincing mosaic.

37a
Appendix B
3.

Stephens’s Awareness of Plaintiff ’s
Complaints

Plaintiff argues that the Magistrate Judge improperly
weighed evidence and made credibility determinations
when he found that no reasonable jury could find that
Stephens was aware of Plaintiff’s complaints against him.
The Court has reviewed the evidence relevant to this
issue and the caselaw relied upon by Plaintiff in support
of his arguments. As the Court indicated in Section
II.A.2. above, the Court finds no error in the Magistrate
Judge’s analysis and agrees that there is no evidence
that Stephens was aware that Plaintiff had complained
of discrimination or retaliation.
4.

TD Delay Code

Plaintiff next objects to the Magistrate Judge’s
finding that no reasonable jury would believe Plaintiff’s
explanation for his continued use of the TD Delay Code,
which was that Stephens had instructed Plaintiff and
other Managing Directors to reduce usage of the code,
not to eliminate usage all together and immediately.
As the Court explains below in Section II.E.4., even if
a jury accepted or believed Plaintiff’s explanation that
he was instructed only to reduce the use of the code,
the evidence indicates that Plaintiff did not do that.
In the termination/warning letter, Stephens stated
that Plaintiff’s organization “actually increase[ed] the
frequency of use” of the TD Delay Code. (Doc. No. 61-7
at 3.) Therefore, regardless of whether the jury believes
Stephens’s characterization of his directive or Plaintiff’s

38a
Appendix B
characterization of that directive, Plaintiff did not comply
with either directive. Stephens articulated his belief that
Plaintiff’s organization had increased its use of the TD
Delay Code, and he relied on that belief in finding that
Plaintiff was in violation of the Acceptable Conduct Policy.
Plaintiff’s objection to the R&R is inconsequential.
5.

Demotion of Ken Baxter

Plaintiff next takes issue with the Magistrate Judge’s
finding that Plaintiff demoted Ken Baxter and the
Magistrate Judge’s reliance on an email sent to Stephens
by Human Resources advisor George Sims in support of
that finding. Plaintiff denies the contents of the email,
which stated, in pertinent part, the following:
As we discussed, during a recent conversation
with Rod Melvin the topic regarding the status
of Ken Baxter surfaced. At that time, Rod
stated that he was told by you explicitly not to
allow Ken to be released from his assignment
as CAER manager or be placed on an [sic]
LOA to seek another position in Indianapolis.
Rod then stated that although he received this
directive from you, he decided to demote Ken
to a Material Handler position so as to facilitate
the move back to INDY and thereby allow Fred
Laskovics to backfill Ken’s position before peak
season.
(Doc. No. 61-21 at 2.) The Magistrate Judge relied on the
email to set forth the directive that Plaintiff had been

39a
Appendix B
given by Stephens, but the Magistrate Judge also relied
on an email that Stephens had sent Plaintiff, which was
evidence of the directive Stephens had given Plaintiff.
(R&R at 30.) The Magistrate Judge did not rely on the
email from George Sims to support the proposition
that Plaintiff admitted to going against the directive
from Stephens. Rather, the Magistrate Judge relied on
Plaintiff’s deposition testimony to support that finding.
Regardless of whether the Magistrate Judge erred in
relying on the email from Sims or Plaintiff’s deposition
testimony to support the proposition that Stephens gave
Plaintiff a directive regarding Baxter that Plaintiff
violated, there is ample, undisputed evidence that Stephens
instructed Plaintiff not to demote Baxter. Further, as the
Court explains below in Section II.E.1. of this Order, the
evidence is undisputed that Stephens believed Plaintiff
had violated that directive. Plaintiff points to evidence
that he did not actually demote Baxter and he attempts
to argue that he explained this to Stephens, prior to
the termination decision, but that argument is without
evidentiary support. There is no evidence to refute that
Stephens had an honest, good-faith belief that Plaintiff had
violated his directive not to demote Baxter. The email from
Sims need not be considered to arrive at that conclusion,
and that conclusion is dispositive of the issue of pretext
concerning the demotion of Baxter.
C.

Failure to Address Plaintiff’s Misunderstood
Arguments

Plaintiff’s next objection is based on his assertion
t h at t he R&R r ef le c t s a m i su nder st a nd i ng or

40a
Appendix B
mischaracterization of his arguments and does not
address those arguments. The Court has considered
Plaintiff’s arguments, as clarified in his Objections, but
those arguments and the evidence on which they are
based do not defeat Defendant’s entitlement to summary
judgment.
1.

Circumstantial Evidence of Stephens’s
Awareness of Complaints

Plaintiff first argues that the Magistrate Judge
mischaracterized his arguments regarding Stephens’s
awareness of Plaintiff’s complaints of discrimination and
retaliation, which would support a causal link between the
complaints and Plaintiff’s termination. The Magistrate
Judge found a lack of evidence indicating that Stephens
knew about any of Plaintiff’s complaints. While the
Magistrate Judge analyzed the temporal proximity
between his complaints and his termination, Plaintiff
contends that Magistrate Judge also should have analyzed
the temporal proximity between his complaints and the
disciplinary letters to conclude that Stephens was aware
of the complaints Plaintiff made against him. Plaintiff
further argues that additional circumstantial evidence
exists in the form of Brown’s knowledge of Human
Resources policy requiring action upon a complaint of
discrimination and Brown’s representations to Melvin
that he was going to make some calls and follow up on
Plaintiff’s complaints.
Assuming, arguendo, that this evidence is sufficient
to create a genuine issue of material fact as to whether

41a
Appendix B
Stephens was aware of Plaintiff’s complaints, the Court
still agrees with the Magistrate Judge that the evidence
fails to support an inference that Plaintiff’s complaints
caused him to receive the adverse action of the written
discipline. As the Court will explain more fully below, the
record demonstrates that Plaintiff was disciplined based
on his own discrete conduct, which breaks the casual link
that would support the retaliation claims. See Henderson
v. FedEx Express, 442 F. App’x 502, 506 (11th Cir. 2011)
(unpublished decision) (“Intervening acts of misconduct
can break any causal link between the protected conduct
and the adverse employment action[.]”). Moreover, even if
Plaintiff could establish a prima facie case of retaliation,
he fails to point to evidence demonstrating a genuine
issue of material fact regarding whether Defendant’s
legitimate, nonretaliatory reasons for terminating him
are pretextual.
2.

Pretext

Plaintiff next argues that the Magistrate Judge
misunderstood or mischaracterized his arguments
regarding whether Defendant’s justification for his
termination is pretext for discrimination and retaliation.
In this regard, Plaintiff maintains that the R&R
mischaracterizes his pretext arg uments as mere
arguments that his termination was not fair, that Stephens
should not have disciplined him, and that the discipline
was not warranted. Plaintiff states that he is not merely
disagreeing with the discipline or arguing about the
unfairness of the discipline. Instead, Plaintiff asserts
that Stephens based the termination decision on “known
falsehoods.” (Doc. No. 99 at 42-43 n.11.)

42a
Appendix B
This Court has conducted a detailed, de novo review
of whether the termination was based on “known
falsehoods” or whether there are any genuine issues
of material fact concerning the same. As explained in
detail in Section II.E. of this Order, the answer to both
inquiries is no. Accordingly, any error by the Magistrate
Judge with respect to the characterization of Plaintiff’s
arguments is not grounds to reject the Magistrate Judge’s
recommendations.
D.

Self-Serving Statements

Plaintiff complains that the Magistrate Judge
incorrectly held that a party’s self-serving statements
cannot defeat summary judgment. Plaintiff is correct that
sworn, self-serving statements by a party should not be
disregarded by courts at the summary judgment stage and
that such statements may provide a basis to properly deny
summary judgment. Strickland v. Norfolk S. Ry. Co., 692
F.3d 1151, 1160 (11th Cir. 2012); Feliciano v. City of Miami
Beach, 707 F.3d 1244, 1253 (11th Cir. 2013). To the extent
that the Magistrate Judge’s mention of “[u]nsupported
self-serving statements” encompassed sworn testimony
of a party, Plaintiff raises a valid issue with respect to
this statement of law included in the R&R’s presentation
of the “Summary Judgment Standard.” Notably, however,
Plaintiff does not point to any of his testimony that the
Magistrate Judge rejected as self-serving and refused
to consider. Therefore, this objection does not provide a
basis for the Court to reject the recommendations within
the R&R.

43a
Appendix B
E. Plaintiff’s Satisfaction of His Burden at
Summary Judgment
Plaintiff next objects to the Magistrate Judge’s finding
that he did not meet his burden under the McDonnell
Douglas framework to withstand summary judgment.
Plaintiff submits that the evidence he has presented
creates a genuine issue that the prima facie case is met
and that Defendant’s justification for the adverse action
is false. The Magistrate Judge agreed that Plaintiff met a
prima facie case. (Doc. No. 95 at 18-19.) Thus, the Court’s
focus is on whether Plaintiff’s evidence creates a genuine
issue that Defendant’s justification for the adverse action
is false.
To show pretext, a plaintiff must show “that the
reasons given by the employer were not the real reasons
for the adverse employ ment decision.” Chapman
v. AI Transp., 229 F.3d 1012, 1024 (11th Cir. 2000)
(citation omitted). The court’s role in conducting the
pretext analysis is to “evaluate whether the plaintiff
has demonstrated such weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons for its action
that a reasonable factfinder could find them unworthy of
credence.” Combs v. Plantation Patterns, Meadowcraft,
Inc., 106 F.3d 1519, 1538 (11th Cir. 1997) (internal quotation
omitted). “A plaintiff is not allowed to recast an employer’s
proffered nondiscriminatory reasons or substitute his
business judgment for that of the employer.” Chapman,
229 F.3d at 1030. The Eleventh Circuit has “repeatedly
and emphatically held that a defendant may terminate an

44a
Appendix B
employee for a good or bad reason without violating federal
law.” See Damon v. Fleming Supermarkets of Fla, Inc.,
196 F.3d 1354, 1361 (11th Cir. 1999) (citation omitted). The
Court’s role is not to judge “whether employment decisions
are prudent or fair.” Id.
Here, Defendant based its termination of Plaintiff
upon a warning letter and two disciplinary letters that
were issued to Plaintiff by Stephens within a 12-month
period and its policy of terminating employees receiving
three such letters within a 12-month period. Plaintiff
maintains that if just one letter is baseless and Stephens
knew the letter to be baseless, then a genuine issue
regarding pretext is present. Plaintiff does not concede
the legitimacy or accuracy of any of the letters, but
Plaintiff’s specific objection is to the Magistrate Judge’s
determination that there were no genuine, disputed facts
concerning the disciplinary and performance issues
raised in the third and final letter that Plaintiff received
on November 3, 2016. Plaintiff asserts that a reasonable
jury could find that this letter is full of falsehoods and is
thus baseless.
Plaintiff’s final letter was for insubordination and
leadership failure and was based on the following,
according to Defendant: (1) Plaintiff had ignored Stephens’s
instructions regarding the demotion of Ken Baxter; (2)
Plaintiff continued to park in a secured lot, despite being
told not to by former VP Brock and Corporate Security, on
nine occasions in September and October 2016; (3) Plaintiff
failed to report a mishandled delivery unit in his region,
which caused 122 service failures; and (4) Plaintiff failed

45a
Appendix B
to discontinue use of the Time Discrepancy (“TD”) delay
code, notwithstanding instructions that had been given
to him to do so on October 11 and 18, 2016.
1.

Demotion of Ken Baxter

Plaintiff contends that he did not demote Ken Baxter,
a manager in Plaintiff’s chain of command, as Stephens
stated Plaintiff had done in the warning/termination
letter. Plaintiff points to evidence in the record that
Baxter applied for an hourly position in Columbia, South
Carolina, and received it because no one else applied.
After Baxter received that position, he then requested
a Leave of Absence in writing, which Plaintiff granted.
Thus, Plaintiff maintains that he did nothing to remove
Baxter from the position he held, and Plaintiff further
contends that Stephens could not have held an honest,
good faith belief that Plaintiff was insubordinate because
he told Stephens what actually happened.
Contrary to what Plaintiff argues, there is no evidence
that Stephens was aware Baxter independently applied for
the hourly position in Columbia, South Carolina. In fact,
Plaintiff avers in the declaration that he submitted with
his summary judgment response that “[his] understanding
from Fred’s testimony is that Ken applied for an open
Handler position in Columbia, SC and got the job
because – even though he was in Group 2 – nobody else
applied for the position.” (Declaration of Roddie Melvin
“Melvin Decl.” [Doc. No. 83-17] ¶ 74) (emphasis added).
Plaintiff avers that he spoke with Stephens, explained
that he had not disobeyed any of his instructions, and

46a
Appendix B
explained what had actually happened. (Id. ¶ 82.) However,
given Plaintiff’s averment that a colleague’s testimony
informed his understanding of how Baxter obtained the
hourly position in South Carolina, this is not information
that Plaintiff could have shared with Stephens prior to
Plaintiff’s termination.
Unquestionably, Stephens was under the impression
on September 14, 2016, that Plaintiff demoted Baxter and
placed him on a leave of absence, as Stephens indicated as
much in the email he sent Plaintiff. (Doc. No. 61-7 at 13.)
Plaintiff did not state in his email response to Stephens
that he did not demote Baxter; rather, he simply stated
the following: “Joe this guy has cost me more than you
know. He put an expense report in a drawer and now
this. We were simply trying to HELP him get back to
Indy. He indicated he was sick and needed to get back. I
thought I was doing the right thing.” (Doc. No. 61-7 at 14.)
Plaintiff’s deposition and declaration testimony indicate
that Plaintiff subsequently spoke to Stephens about what
transpired and that Stephens understood what Plaintiff
had done, but Plaintiff has not pointed to any evidence
that Stephens knew or should have known that Plaintiff
had not demoted Baxter.
Having closely considered Plaintiff’s arguments and
the evidence upon which he relies, the Court finds that
Plaintiff’s objection is without merit. Even if Stephens’s
reliance on the demotion of Baxter as a basis for Plaintiff’s
termination was factually in error, Plaintiff has not pointed
to any evidence tending to show that Stephens knew this
reason to be a falsehood at the time that he terminated

47a
Appendix B
Plaintiff. This is problematic with respect to Plaintiff’s
attempt to show a genuine issue concerning pretext, as
Eleventh Circuit authority indicates the following:
Evidence showing a false factual predicate
underlying the employer’s proffered reason
does not unequivocally prove that the employer
did not rely on the reason in making the
employment decision. Instead, it may merely
indicate that the employer, acting in good
faith, made the disputed employment decision
on the basis of erroneous information. It is
obviously not a violation of federal employment
discrimination laws for an employer to err in
assessing the performance of an employee.
Thus, establishing pretext is not merely
demonstrating that the employer made a
mistake, but that the employer did not give an
honest account of its behavior.
Walker v. NationsBank of Fla. N.A., 53 F.3d 1548, 1564
(11th Cir. 1995) (internal citations omitted). Plaintiff has
not presented evidence from which a reasonable jury could
infer that Stephens did not genuinely believe that Plaintiff
had not followed his directive concerning Baxter.
2.

Parking Inside Security Fence

Plaintiff claims that he followed all appropriate
parking rules and only parked inside the security fence
with permission from Security. Plaintiff points to evidence
that Stephens had previously seen Security allow him to

48a
Appendix B
park inside the security fence, and Plaintiff also testified
that he told Stephens, prior to the issuance of the warning/
termination letter, that Security had authorized him to
park inside the security fence.
The evidence indicates that Plaintiff had reached an
understanding with Security Director Alex Kerr back in
2012 that Plaintiff would confer with Kerr’s subordinates,
Rich Landsiedel and Lois Burnett, whenever he was
conducting employee meetings and other special events
and needed permission to park inside the security fence
to be able to transport items quickly to and from the
meetings. However, in 2015, Ricky Brock, who was a VP
and Plaintiff’s supervisor at that time, sent Plaintiff a
Performance Reminder that advised Plaintiff of various
performance deficiencies, including that Plaintiff had gone
to Security to get permission to park inside the security
fence, which Brock said was directly in violation of his
instruction regarding ramp security. Brock instructed
Plaintiff in that Performance Reminder that any “[s]pecial
request through any department that benefit[ted] [him]
personally [was] not [to] be requested by [him].” (Doc.
No. 61-7 at 18.)
St ephen s sp ec i f ic a l ly referenced t he above
Performance Reminder in the warning/termination
letter issued on November 3, 2016, thus making the letter
relevant to the termination decision and to the Court’s
pretext analysis. (Doc. No. 61-7 at 2.) Additionally, as
the Magistrate Judge noted, the managing director
of Security, Kristina Burchfield, sent Joe Stephens an
email in September of 2016 indicating that Plaintiff was

49a
Appendix B
observed parking his personal vehicle inside the perimeter
fence. When asked about why he was parking inside the
perimeter fence, Plaintiff stated that his knee was bad.
Stephens was advised in that email correspondence that
Plaintiff had stated he would discontinue parking inside
the perimeter fence. (Doc. No. 61-7 at 17.) Yet, as indicated
in the warning/termination letter issued on November
3, 2016, Plaintiff parked his personal vehicle in the
unapproved location nine additional times in less than a
two-month period after stating that he would discontinue
parking inside the perimeter fence.
The information available to Stephens indicated that
Plaintiff was no longer supposed to be parking inside the
security fence, irrespective of Plaintiff’s discussions with
Security Managers Burnett and Landsiedel, but that he
had continued to do so. This basis for the disciplinary action
was not a “falsehood” or a pretext for discrimination, as
Plaintiff contends.
3.

Reporting of Mishandled Delivery and
Accompanying Service Failures

With respect to the reporting of the mishandled
delivery and the 122 accompanying service failures,
Plaintiff states that he could not report the incident to
Stephens because the incident had not been properly
reported to him. According to Plaintiff, he thought that
his Operations Administrator had reported the exception
and did not learn that she had not done so until after
someone else had already reported the exception to
Stephens. Plaintiff points out that Stephens testified

50a
Appendix B
that FedEx does not fire somebody every time there is a
service failure, and Plaintiff maintains that it is “highly
suspicious” that Defendant used this “one incident” as
a basis for termination. (Doc. No. 99 at 49) (emphasis in
original). The evidence relied on by Plaintiff does not
create a genuine issue regarding pretext.
As an initial manner, Defendant did not base the
termination decision on this one incident. Stephens cited
four different reasons in the warning/termination letter
for the disciplinary action. Additionally, while Plaintiff
essentially blames his Operations Administrator for
the failure to report the incident to Stephens and states
that he explained to Stephens that his Operations
Administrator was responsible for that failure to report,
Stephens’s apparent decision to hold Plaintiff ultimately
responsible for the failure to report the exception that
occurred within his region is a business decision and is
not evidence of pretext. It is not this Court’s role “to act
as a super personnel department that second-guesses
employers’ business judgments.” Wilson v. B/E Aerospace,
Inc., 376 F.3d 1079, 1092 (11th Cir. 2004) (internal marks
and citation omitted). Whether Defendant acted unfairly
or unwisely to hold Plaintiff ultimately responsible for
the failure and to include this failure among the reasons
to support the termination decision is not for this Court
to decide.
4.

TD Delay Code

The final issue in the warning/termination letter
concerns the TD Delay Code, which is a code that is
entered into FedEx’s system to classify certain incidents

51a
Appendix B
when a plane is delayed in getting out. Plaintiff argues
that Stephens never instructed him to halt the usage of the
code immediately. Rather, the instruction was to reduce
it, and Stephens, according to Plaintiff, understood this
to be Plaintiff’s understanding.
In the warning/termination letter, Stephens indicated
that he had told Plaintiff to discontinue the application of
the TD Delay Code multiple times. Regardless of whether
there was a miscommunication about discontinuing the use
of the code all together or reducing the use of the code,
Stephens explained in the warning/termination letter
that Plaintiff’s organization had actually increased the
frequency of use of the TD Delay Code. (Doc. No. 61-7 at 3.)
As such, even if the instruction was only to reduce the use
of the TD Delay Code or Plaintiff reasonably understood
that to be the instruction, Plaintiff did not comply with
that instruction. Plaintiff points to no evidence creating
a genuine issue of material fact concerning whether his
organization increased the use of the TD Delay Code, as
Stephens stated in the warning/termination letter. Thus,
Plaintiff’s argument that Stephens could not have had a
good-faith belief that Plaintiff was being insubordinate is
not supported by the evidence, even when that evidence
is construed, as it must be, in Plaintiff’s favor. There is
no genuine issue to go before a jury relating to the TD
Delay Code.
F.

Plaintiff’s Statement of Additional Facts

Plaintiff contends that the Mag istrate Judge
erred in failing to address Defendant’s inadequate

52a
Appendix B
response to Plaintiff’s Statement of Additional Facts.
Specifically, Plaintiff states that of Plaintiff ’s 218
additional facts, Defendant responded only to numbers
1-9, 11-20, 42, and 142-47. Plaintiff argues that Defendant’s
failure to respond to the remaining facts requires that
those facts be treated as conceded for the purpose of
summary judgment. Plaintiff further maintains that even
Defendant’s objections to the limited number of facts to
which Defendant responded are deficient. For this reason,
Plaintiff urges that all of Plaintiff’s additional facts should
be conceded for consideration at summary judgment.
In contrast to Local Rule 56.1.B(2)a(2), which
specifically states that the Court will deem the movant’s
undisputed facts as admitted unless the respondent
addresses each fact in the manner set forth in that rule,
Local Rule 56.1B(3) does not require that the Court deem
any additional facts as admitted if there is no response or
an inadequate response to the additional facts. See U.S. for
Use and Ben. of WFI Georgia, Inc. v. Gray Ins. Co., 701 F.
Supp. 2d 1320, 1333 n. 14 (N.D. Ga. 2010) (noting that Local
Rule 56.1B(3) “does not require the court deem anything
admitted”). The Magistrate Judge could have considered
the additional facts at issue unopposed or admitted, and
this is often what is done. See, e.g., Gaylor v. Greenbriar
of Dahlonega Shopping Center, Inc., 975 F. Supp. 2d
1374, 1391 n.12 (N.D. Ga. 2013); E.E.O.C. v. Atlanta
Gastroenterology Assocs., LLC, No. Civ.A.1:05CV2504TWT, 2007 WL 602212, at *3 n.2 (N.D. Ga. Feb. 16,
2007). However, the Magistrate Judge apparently opted
in favor of deciding the case on the merits, which also
is a permissible exercise of the Court’s discretion. See

53a
Appendix B
Flores v. Ultimate Appearance Law Service, LLC, CIVIL
ACTION NO. 1:14-CV-485-RWS, 2016 WL 7437124, at *1
n.1 (N.D. Ga. Sept. 15, 2016) (“Plaintiff filed a Statement of
Additional Facts in compliance with Local Rule 56.1B(3),
but Defendants did not respond to the Additional Facts.
The Court could deem these Additional Facts admitted.
However, in an effort to decide this case on the merits,
the Court has not done so.”). For this reason, the Court
overrules this objection.
G. Rejection of Discriminatory Remarks as
“Stray Remarks”
Plaintiff objects to the characterization of Stephens’s
questions and comments to him about his age as “stray
remarks.” Plaintiff argues that Stephens’s discriminatory
animus, as indicated by the remarks, prompted the June
warning letter and the subsequent disciplinary letters
that Plaintiff received and on which Stephens eventually
based his decision to terminate Plaintiff’s employment.
While acknowledging that discriminatory remarks
made by a decisionmaker can be evidence of pretext, the
Magistrate Judge reasoned that the remarks are not
sufficient to create an issue of fact as to whether Stephens
would not have terminated Plaintiff but for his age. First,
the evidence relied on by Plaintiff indicated that Stephens
had made age-related marks concerning Plaintiff on only
one occasion. Second, Plaintiff provided no evidence that
the remarks were linked to the termination decision.
Third, the Magistrate Judge reasoned that the remarks
were too remote in time from the date of Plaintiff’s

54a
Appendix B
termination to support Plaintiff’s claims. Fourth, the
Magistrate Judge considered that there were four other
managing directors in Plaintiff’s region over 50 years old,
who were not disciplined as frequently as was Plaintiff,
and that Plaintiff’s replacement also was over 50 years old.
Having freshly considered the evidence concerning
Stephens’s discriminatory statements in conjunction with
the entire record, the Court agrees that the statements,
albeit disturbing, are not probative, circumstantial
evidence of discriminatory intent with respect to
Plaintiff’s termination. The statements made by Stephens
were isolated remarks, and there is no evidence that the
statements were related to the decision to terminate
Plaintiff. These statements, alone, are insufficient to
establish a material fact on pretext or a convincing mosaic,
and the record does not otherwise support Plaintiff’s
discrimination claims.
H. Failure to Consider Expert Report
Plaintiff next argues that the Magistrate Judge
improperly ignored the testimony of his expert, Lorene
Schaefer, Esq. According to Plaintiff, Schaefer’s testimony
supports that FedEx inadequately investigated Plaintiff’s
complaints of discrimination and that a thorough
investigation of Plaintiff’s complaints likely would have
substantiated Plaintiff’s claim that Stephens asked him
about his age and retirement plans. Schaefer goes a step
further and also opines that if Stephens’s subsequent
actions had been scrutinized, as they likely would have
been, Plaintiff likely would not have been terminated.

55a
Appendix B
The Magistrate Judge did not ignore this evidence.
Indeed, the R&R includes a quotation of the summary
from Schaefer’s expert report. (Doc. No. 95 at 50.) In
considering Defendant’s Motion to Exclude the Expert
Testimony, the Magistrate Judge stated that he had
reviewed the report and concluded that testimony
consistent with the report, even if admissible, still does not
create an issue of fact as to any of Plaintiff’s claims. (Id.)
The Magistrate Judge reasoned that even an “investigation
of the investigation” did not yield sufficient evidence to
create an issue of material fact concerning whether the
decision to terminate Plaintiff was discriminatory. (Id. at
51.) The Court agrees.
Plaintiff was disciplined and ultimately terminated
for legitimate reasons, and Plaintiff has not persuasively
shown that those reasons were a pretext for discrimination.
Irrespective of any standards for effective workplace
investigations and whether Defendant’s response to
Plaintiff’s discrimination complaints met or failed to meet
those standards, evidence that Defendant’s investigations
were deficient does not alter Plaintiff ’s failure to
persuasively contest Defendant’s showing that Plaintiff
was terminated for legitimate, nondiscriminatory reasons.
Additionally, Plaintiff previously emphasized that his
intent in using Schaefer’s expert report at the summary
judgment stage was merely to identify the standards
for effective workplace investigations, not to prove
Defendant’s failure to meet those standards. (Doc. No.
94 at 2, 5.) Yet, in his objections, Plaintiff argues that
the Magistrate Judge failed to consider the way the

56a
Appendix B
expert report sheds light on the way Defendant enabled
discrimination and retaliation. If the purpose of the expert
report, on summary judgment, was simply to set forth
the standards, Plaintiff cannot logically argue that the
Magistrate Judge should have considered how the expert
report demonstrated that the workplace investigations
were deficient.
Plaintiff ’s objection concerning the Magistrate
Judge’s failure to consider the expert report is due to be
overruled.
I.

Exclusion of “Me Too” Evidence

Plaintiff finally objects to the R&R on the basis that it
ignores the history of discrimination allegations against
Stephens, including accusations by five other FedEx
employees that Stephens discriminated against them.
In the context of employment discrimination cases, the
Eleventh Circuit has held that “me too” evidence may
be admissible under Federal Rule of Civil Procedure
404(b) to prove the employer’s motive, intent, or plan
to discriminate against a plaintiff. Goldsmith v. Bagby
Elevator Co., 513 F.3d 1261, 1286 (11th Cir. 2008); Phillips
v. Smalley Maint. Servs., Inc., 711 F.2d 1524, 1532 (11th
Cir. 1983).
Contrary to Plaintiff’s argument, the Magistrate
Judge did not ignore this “me too” evidence or exclude
it outright. Rather, the Magistrate Judge considered the
particulars of those accusations, the investigations of those
accusations, and the outcomes of the investigations before

57a
Appendix B
concluding that the history of complaints is minimally
probative and fails to help establish a “convincing
mosaic” of circumstantial evidence creating a reasonable
inference that Stephens terminated Plaintiff based on
his age. (Doc. No. 95 at 34-36.) In addition to the reasons
articulated by the Magistrate Judge for finding that the
“me too” allegations do not create material issues of
fact, many of the “me too” allegations occurred under
very different circumstances and some of the allegations
are quite remote in time. See Davis v. Dunn Constr.
Co., Inc., 872 F. Supp. 2d 1291, 1318 (N.D. Ala. 2012)
(finding relevant to the analysis whether the other
allegations of discrimination occurred close in time to
the plaintiff’s allegations, whether the other employees
alleging discrimination had similar job positions as the
plaintiff, whether the other employees suffered adverse
employment actions for reasons similar to the defendant’s
proffered reason for demoting the plaintiff, and whether
there was a common decisionmaker). Having conducted
a de novo review of the issues and evidence concerning
the “me too” allegations, the Court agrees that those
allegations are only minimally probative and do not shed
much light upon Stephens’s alleged intent to discriminate
against Plaintiff.
III.

CONCLUSION

Having conducted a de novo review of all portions
of the R&R to which Plaintiff objects and having
reviewed the remainder of the R&R for plain error, the
Court agrees that Defendant is entitled to summary
judgment on Plaintiff’s discrimination and retaliation

58a
Appendix B
claims. Accordingly, the Court ADOPTS the R&R as the
decision of this Court. Defendant’s Motion for Summary
Judgment [Doc. No. 57] is GRANTED and Defendant’s
Motion to Exclude Testimony of Lorene F. Schaefer, Esq.
[Doc. No. 90] is DENIED as moot. Plaintiff’s claims are
DISMISSED.
SO ORDERED this 1st day of May, 2019.
s/ CLARENCE COOPER
CLARENCE COOPER
SENIOR UNITED STATES
DISTRICT JUDGE

59a
C REPORT
APPENDIXAppendix
C — FINAL
AND RECOMMENDATION OF THE
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF GEORGIA,
ATLANTA DIVISION, DATED JANUARY 28, 2019
CIVIL ACTION FILE NO.:
1:17-CV-00789-CC-JCF
IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF GEORGIA, ATLANTA DIVISION
RODDIE MELVIN,
Plaintiff,
v.
FEDERAL EXPRESS CORPORATION,
Defendant.
FINAL REPORT AND RECOMMENDATION
This case is before the Court on Defendant’s Motion
For Summary Judgment. (Doc. 57) and its Motion To
Exclude Testimony Of Lorene F. Schaefer, Esq (Doc. 90).
For the reasons that follow, it is RECOMMENDED that
Defendant’s motion for summary judgment be GRANTED.
It is further RECOMMENDED that Defendant’s motion
to exclude testimony be DENIED as moot.

60a
Appendix C
Factual Background
The facts, for summary judgment purposes only, are
derived from Defendant’s statement of material facts (Doc.
57-2, “Def. SMF”); Plaintiff’s response to Defendant’s
statement of material facts (Doc. 83-2); Plaintiff ’s
statement of additional material facts (Doc. 83-3, “Pl.
SMF”); Defendant’s response to Plaintiff’s statement of
additional material facts (Doc. 92); and undisputed record
evidence. The undersigned notes that the parties’ factual
assertions are taken in large part from the depositions
of Plaintiff (Doc. 61, “Pl. Dep.”); Michael Pigors (Doc.
60, “Pigors Dep.”); Joseph Stephens (Doc. 70, “Stephens
Dep.”); George Sims (Doc. 62, “Sims Dep.”); Bobby Willis
(Doc. 71, “Willis Dep.”); Reginald Owens, Sr. (Doc. 66,
“Owens Dep.”); Shannon Brown (Doc. 67, “Shannon Brown
Dep.”); Carla Laszewski (Doc. 77, “Laszewski Dep.”); and
Wanda English (Doc. 84, “English Dep.”).
I.

Plaintiff’s Employment With FedEx

Plaintiff Roddie Melvin (“Plaintiff”), an AfricanAmerican who is over 40 years old, was employed by
Defendant Federal Express Corporation (“Defendant” or
“FedEx”) from 1983 until he was terminated in November
2016. (Doc. 1 ¶¶ 8, 14; Def. SMF ¶ 4; Doc. 83-2 ¶ 4). From
February 2006 to the date of his termination, Plaintiff held
the position of managing director of one of four districts
within the Southern Region of Defendant’s Air Ground
Freight Services Division (“AGFS”). Other managing
directors in the Southern Region at the time of Plaintiff’s
termination included: Maurice Settles (“Settles”), an

61a
Appendix C
African-American male aged 56; Bobby Willis (“Willis”),
an African-American male aged 55; Jeff Brown (“Brown”),
an African-American male aged 55; and Anna Lewis
(“Lewis”), a white female aged 51. (Doc. 57-1 (“Def. MSJ”)
at 51; Doc. 83-2 ¶ 6). Over the course of his employment
with FedEx, Plaintiff was offered several management
promotions. (Pl. SMF ¶¶ 58-59, 61-63, 66, 68). Plaintiff
also received several management awards from 1990 to
2010. (Id. ¶¶ 60, 64, 65, 72, 74). Plaintiff was nominated for a
vice president (“VP”) position by his superior, VP Reginald
Owens, Sr. (“Owens”). (Id. ¶ 75).
Prior to April 2016, Plaintiff reported to VPs Owens
and Ricky Brock (“Brock”). (Def. SMF ¶ 7; Doc. 83-2 ¶ 7).
In April 2016, Brock retired and was replaced by Joseph
Stephens (“Stephens”), a VP in Defendant’s Memphis
hub. (Doc. Def. SMF ¶¶ 8, 9; Doc. 83-2 ¶¶ 8, 9). Prior to
assuming VP over the Southern Region, Stephens was
hired by FedEx’s president of U.S. Operations, Michael
Pigors (“Pigors”), to fill a VP position for Defendant’s
Memphis hub office. (Def. SMF ¶¶ 13-14). At one point,
Plaintiff expressed interest in the Memphis VP position,
but he was not nominated for it. (Def. SMF ¶¶ 12, 14, 15;
Doc. 83-2 ¶¶ 12, 14, 15). 2
1. Citation is to ECF pagination except when citing to
deposition testimony.
2. The parties disagree as to whether Plaintiff was fairly
considered by Pigors for the Memphis hub VP position in 2015 and
Plaintiff’s interest in being nominated by his superior, Ricky Brock,
before the position was filled by Stephens. (Compare Def. SMF ¶¶ 13,
14, 16 with Doc. 83-2 ¶¶ 13, 14, 16). However, this dispute appears to
be immaterial, as Plaintiff has withdrawn his initial allegation that

62a
Appendix C
II. Plaintiff’s Warning Letters From Supervisors
During the time that Plaintiff reported to VP Owens,
Plaintiff received discipline counseling concerning
administrative failures. (Def. SMF ¶ 38; Doc. 83-2 ¶ 38).
Owens testified that he issued the discipline to Plaintiff
in the form of a “warning letter[,]” initiated by excessive
absences and communications failures about managing
operations. (Owens Dep. at 41:6-10; Def. SMF ¶ 38).
Owens also testified that prior to Owens’s issuance of
the discipline letter, Plaintiff was not reachable during
“critical points in [his] operation” when he needed to be
there. (Owens Dep. at 44:9-11; Def. SMF ¶ 39). Owens also
issued Plaintiff verbal counseling for taking Fridays off
“for two to three months . . . as a liberty day[.]” (Owens
Dep. at 49:14-16; Def. SMF ¶ 39; Doc. 83-2 ¶ 39). Plaintiff
stated that the Fridays on which Owens believed he
took “liberty days” were misclassified in the Microsoft
Outlook calendar to which Owens had access. (Pl. Decl.
¶ 15). On May 14, 2008, Owens issued Plaintiff further
discipline in the form of a warning letter. (Doc. 61-1 at
2-3; see also Def. SMF ¶ 40; Doc. 83-2 ¶ 40). Specifically,
the letter cited Plaintiff’s failure to contact members of
upper management regarding an aircraft accident and
resultant “asset damages[.]” (Doc. 61-1 at 2). The letter
advised Plaintiff of his right to appeal the discipline’s
issuance through FedEx’s “Guaranteed Fair Treatment
Procedure/EEO Complaint Process[.]” (Id.). Plaintiff did
not utilize Defendant’s appeal process. (Doc. 83-2 ¶ 41).
he was denied the opportunity to apply for the Memphis VP position
on the basis of his race. (Doc. 83 at 4, n.1).

63a
Appendix C
On August 12, 2015, VP Brock issued Plaintiff a written
Performance Reminder, which cited communications
issues, Plaintiff’s failure to follow uniform reporting
mandates, and “poor judgment” resulting from occurrences
such as Plaintiff’s continued decision to park in a secured
lot despite being told not to by a managing director of
security, Alex Kerr (“Kerr”). (Doc. 63-1 at 1-2; see also
Brock Dep. at 88:12-91:23; Doc. 83-2 ¶ 43). After Kerr
directed managing directors not to park in the secured
area, Plaintiff obtained approval to do so from Kerr’s
subordinates, security managers Lois Burnett or Richard
Lansidle. (Doc. 83-2 ¶ 43;Pl. Decl. 84; Doc. 86 at 10:6-18).
Plaintiff also sent an email to Kerr indicating that he
would require parking within the security gates “when I
am conducting employee meetings at and between ATLR
and FOPRT” or “when a member of my team needs to
bring in food for safety events, skip levels, or employee
celebrations and meetings, etc.” (Doc. 61-19 at 2). In a
response, Kerr stated that he did “not see an issue with
anything you have described we just need to make sure
that this is properly communicated[. W]e have processes
to deal with this at other locations that Lois [Burnett] can
implement for you.” (Id.).
On June 16, 2016, VP Stephens issued Plaintiff
a warning letter regarding over forty past due or
delinquent managerial tasks, referred to as “PRISMs,”
which included late employee performance reviews, past
due mandatory Department of Transportation (“DOT”)
requirements, and past due safe driving awards. (Def.
SMF ¶ 64; Doc. 83-2 ¶ 64). Specifically, Stephens’s letter
cited 26 late performance reviews, 20 past due DOT

64a
Appendix C
requirements, and six past due safe driving awards.
(Doc. 61-3 at 2). Stephens wrote that “[w]hile a select few
were explainable, the majority were not and dated back
to June, 2015 or 11 months delinquent.” (Id.). Stephens’s
letter also stated that Plaintiff had falsely told Stephens
he had counseled his subordinates for the late PRISM
tasks when in fact he had not done so. (Id.). Instead,
Stephens stated, Plaintiff had “merely forwarding my
EMAIL communications, intended for you, to your team
versus taking a sense of ownership and demonstrating
a leadership role in upholding policy[.] . . . Your lack of
ownership and associated leadership are a conduct issue
and in direct violation of the Acceptable Conduct Policy,
P2-5[.]” (Id. at 3). Stephens’s letter stated that, “In
accordance with policy, this Warning Letter will remain
active for twelve months. Any three (3) notifications of
deficiency (i.e., any combination of Warning Letters and/
or Performance Reminders) received within a 12-month
period may result in termination.” (Id.).
Plaintiff received another disciplinary letter from
Stephens on August 11, 2016, which referenced multiple
inaccurate expense reports, unauthorized distribution of
confidential information, operational failures resulting in
delayed services, and non-compliance with capture rates
and audit performance. (Def. SMF ¶ 75; Doc. 83-2 ¶ 75;
Doc. 61-4 at 2-5). Further, that letter cited Plaintiff’s
requisition to replace an employee despite Plaintiff’s unit
being fully staffed. (Def. SMF ¶ 76; Doc. 83-2 ¶ 76; Doc. 61-4
at 2). Finally, Stephens’s August 2016 letter referred to a
May 16, 2016 discussion with Plaintiff regarding his failure
to take responsibility for administrative shortcomings, as

65a
Appendix C
well as a June 16, 2016 discussion regarding “the lack of
follow up and improvement from our prior discussion[,]”
which accompanied Plaintiff’s first disciplinary letter from
Stephens. (Doc. 61-4 at 2). 3
III. Plaintiff’s November 2016 Disciplinary Letter And
Termination
Plaintiff was suspended with pay on October 27,
2016 pending an investigation. (Def. SMF ¶ 84; Doc. 83-2
¶ 84). On November 3, 2016, Stephens issued Plaintiff
a Warning/Termination Letter from Stephens “for
insubordination and Leadership Failure in violation of the
Acceptable Conduct Policy (P2-6)[.]” (Doc. 61-7 at 2; see
also Def. SMF ¶ 85; Doc. 83-2 ¶ 85). The letter stated that
Stephens had a conducted an investigation resulting in a
finding that Plaintiff had ignored Stephens’s instructions
regarding the demotion of a subordinate manager named
Ken Baxter. (Doc. 61-7 at 2). Specifically, Stephens’s letter
states that Plaintiff demoted Baxter despite being told
not to do so by Stephens. (Id.). The letter also stated that
Plaintiff continued to park in a secured lot despite being
told not to by former VP Brock and Corporate Security
on nine occasions in September and October 2016. (Id.).
Additionally, the letter referenced a mishandled delivery
unit in Plaintiff’s region that he failed to report, which
caused 122 service failures and Plaintiff’s failure to
“discontinue the application of the T[ime] D[iscrepancy]
[“TD”] delay code due to the excessive use identified in
3. In his response to Defendant’s statement of material facts,
Plaintiff disputes that the discussion referenced by Stephens ever
took place. (Doc. 83-2 ¶ 75).

66a
Appendix C
your District” despite instructions to do so on October 11
and 18, 2016.4 (Id. at 3). Finally, the letter cited Plaintiff’s
two previous disciplinary Warning Letters and stated the
following:
Both the Performance Improvement Policy (P250) and the Acceptable Conduct Policy (P2-5)
provide that three notifications of deficiency
within a twelve-month period normally result
in termination. Therefore, your employment is
terminated effective today.
(Id.). The Warning Letter stated that Plaintiff was
permitted to pursue an appeal of the disciplinary
action under Defendant’s Guaranteed Fair Treatment
Procedures within five days of receipt of the letter. (Id.).
IV. Plaintiff’s Complaints And Defendant’s Internal
Investigation
In May 2016, Plaintiff told Human Resources Adviser
Wanda English (“English”) that Stephens had asked
Plaintiff his age and whether or not he was planning on
retiring soon, stating “just go ahead and move on and let
the young guys take over.” (Pl. Dep. at 226:5-16; see also
4. Defendant put into place TD delay codes “to account for the
discrepancy between clocks on the wall, watches worn by employees,
and clocks in the aircraft[.]” (Def. SMF ¶ 111; Doc. 83-2 ¶ 111). In an
email dated October 11, 2016, Stephens told Plaintiff, “I want the
use of TD delays eliminated. Either the flights departed on time or
they didn’t—we discussed this last week.” (Doc. 61-11 at 2; Def. SMF
¶ 116; Doc. 83-2 ¶ 116).

67a
Appendix C
Pl. SMF ¶ 22). In June 2016, Plaintiff verbally complained
to English and Senior VP of Human Resources, Shannon
Brown, that he believed Stephens had issued him the June
2016 warning letter on the basis of his age “and retaliating
against him by creating a ‘laundry list’ of issues to justify
terminating” him. (Pl. SMF ¶ 23). In August 2016, Plaintiff
again verbally reported to English and Shannon Brown
that he believed Stephens’s August 2016 warning letter
was issued “in an attempt to terminate him because of
his age.” (Id. ¶ 24).
On November 2, 2016, during the time he was
suspended, Plaintiff sent an email to Shannon Brown and
Wanda English complaining of “age/race discrimination,
harassment and retaliation [] against Joseph Stephens.”
(Doc. 61-12 at 2). Plaintiff cited the ageist comments and
questions about whether he was going to retire soon that
gave rise to his verbal complaints, and he stated that he
believed Stephens was about to terminate him based on his
age and race. (Id. at 2-3). Carla Laszewski (“Laszewski”),
Defendant’s in-house counsel, investigated Plaintiff’s
internal EEO complaint initiated by his November 2
email. (See Doc. 57-25 at 2, ¶ 4). Laszewski compiled an
investigative file containing approximately 220 pages of
materials (id.), which found that Plaintiff’s allegations
were unsubstantiated, and his discipline and termination
was issued without violations to FedEx’s EEO policy. “no
policy violations.” (Id. at 7).
On December 5, 2016, FedEx Appeals Board
Administrator Elizabeth Casteel sent Plaintiff a letter as
a follow-up to the appeal of his termination, which stated
in relevant part:

68a
Appendix C
The Appeals Board convened on December 5,
2016, at your request, to review your Warning
Letter/Termination on November 3, 2016, for
violation of the Acceptable Conduct Policy.
The Board carefully analyzed the facts
surrounding your GFTP complaint and it was
the Board’s decision to uphold management’s
actions.
(Doc. 61-25 at 2). Shannon Brown was the head of
Defendant’s Appeals Board, and other Board members
varied on a rotational basis. (Def. SMF ¶ 132; Doc.
83-2 ¶ 132). As part of Defendant’s Human Resources
department collected information, and the Appeals Board
“reviewed the documentation and the facts, discussed
the same, and rendered a decision to uphold Stephens’
decision[.]” (Def. SMF ¶ 132; Doc. 83-2 ¶ 132).
After his termination, Plaintiff’s position was filled by
Thomas Maxwell, an Asian male aged 51 years old. (Def.
SMF ¶ 134; Doc. 83-2 ¶ 134).
Procedural History
On March 3, 2017, Plaintiff filed a Complaint in which
he alleges that Defendant terminated him because of his
race and retaliated against him in violation of 42 U.S.C.
§ 1981. (See generally Doc. 1). Defendant filed an Answer
on April 18, 2017. (Doc. 6). Plaintiff filed an Amended
Complaint with the Court’s leave on June 5, 2017, in which
he added claims of discrimination and retaliation under

69a
Appendix C
the ADEA, 29 U.S.C. § 621 et seq. (See Doc. 14 ¶¶ 59-72).
Defendant answered the Amended Complaint on June 19,
2017. (Doc. 21).
Defendant has now filed a motion seeking summary
judgment (Doc. 57) with supporting brief (Doc. 57-1),
statement of material facts (Doc. 57-2), and exhibits (Docs.
57-3 through 57-27). Plaintiff submitted a response brief
(Doc. 83), a response to Defendant’s statement of material
facts (Doc. 83-2), a statement of additional material facts
(Doc. 83-3), and exhibits (Docs. 83-4 through 83-38).
Defendant timely replied to Plaintiff’s response (Doc.
91) and filed its own response to Plaintiff’s statement of
additional material facts on June 5, 2018 with exhibits
(Doc. 92; Docs. 92-1 through 92-26).
On June 5, 2018, Defendant filed a Motion To Exclude
Testimony Of Lorene F. Schaefer, Esq. (Doc. 90). Plaintiff
responded to Defendant’s motion to strike on June 20,
2018. (Doc. 94). Defendant has not filed a reply brief, and
the time for doing so has passed. With briefing on both
motions complete, the undersigned turns to the merits of
Defendant’s motions.
Discussion
I.

Defendant’s Motion For Summary Judgment (Doc. 57)
A.

Summary Judgment Standard

Summary judgment is proper “if the movant shows
that there is no genuine dispute as to any material fact

70a
Appendix C
and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). “A party asserting that a fact cannot
be or is genuinely disputed must support that assertion
by[] . . . citing to particular parts of materials in the
record, including depositions, documents, electronically
stored information, affidavits or declarations, stipulations
(including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials.”
Fed. R. Civ. P. 56(c)(1). The moving party has an initial
burden of informing the court of the basis for the motion
and showing that there is no genuine issue of material fact.
Celotex Corp v. Catrett, 477 U.S. 317, 323 (1986); see also
Arnold v. Litton Loan Servicing, LP, No. 1:08-cv-2623WSD, 2009 WL 5200292, at *4 (N.D. Ga. Dec. 23, 2009)
(“The party seeking summary judgment bears the burden
of demonstrating the absence of a genuine dispute as to
any material fact.”) (citing Herzog v. Castle Rock Entm’t,
193 F.3d 1241, 1246 (11th Cir. 1999)). If the non-moving
party will bear the burden of proving the material issue
at trial, then in order to defeat summary judgment, she
must respond by going beyond the pleadings, and by her
own affidavits, or by the discovery on file, identify facts
sufficient to establish the existence of a genuine issue for
trial. See Celotex, 477 U.S. at 322, 324. “No genuine issue of
material fact exists if a party has failed to ‘make a showing
sufficient to establish the existence of an element . . . on
which that party will bear the burden of proof at trial.’”
AFL-CIO v. City of Miami, 637 F.3d 1178, 1186-87 (11th
Cir. 2011) (quoting Celotex, 477 U.S. at 322).
Furthermore, “[a] nonmoving party, opposing a motion
for summary judgment supported by affidavits[,] cannot

71a
Appendix C
meet the burden of coming forth with relevant competent
evidence by simply relying on legal conclusions or evidence
which would be inadmissible at trial.” Avirgan v. Hull,
932 F.2d 1572, 1577 (11th Cir. 1991), cert. denied, 506 U.S.
952 (1992); see also Fed. R. Civ. P. 56(c)(1)(B), (c)(4). The
evidence “cannot consist of conclusory allegations or legal
conclusions.” Avirgan, 932 F.2d at 1577. Unsupported
self-serving statements by the party opposing summary
judgment are insufficient to avoid summary judgment.
See Midwestern Waffles, Inc. v. Waffle House, Inc., 734
F.2d 705, 714 (11th Cir. 1984).
For a dispute about a material fact to be “genuine,”
the evidence must be such that “a reasonable jury could
return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). “If
the evidence is merely colorable, or is not significantly
probative, summary judgment may be granted.” Id. at
249-50 (internal citations omitted). It is not the court’s
function at the summary judgment stage to determine
credibility or decide the truth of the matter. Id. at 249,
255. Rather, “[t]he evidence of the nonmovant is to be
believed, and all justifiable inferences are to be drawn in
[the nonmovant’s] favor.” Id. at 255.
B. Plaintiff’s Claims
Defendant seeks summary judgment on all of Plaintiff’s
claims, i.e., his discrimination and retaliation claims
under section 1981 and his ADEA age discrimination and
retaliation claims. (Doc. 57).

72a
Appendix C
1.

Age Discrimination Claim
i.

Analytical Framework

The ADEA provides in relevant part, that “[i]t shall
be unlawful for an employer . . . to fail or refuse to hire
or to discharge any individual or otherwise discriminate
against any individual with respect to his compensation,
terms, conditions, or privileges of employment, because
of such an individual’s age.” 29 U.S.C. § 623(a)(1); see also
Mazzeo v. Color Resolutions Int’l, LLC, 746 F.3d 1264,
1270 (11th Cir. 2014) (“The ADEA, whose purpose is ‘to
promote employment of older persons based on their
ability rather than age,’ 29 U.S.C. § 621(b), prohibits
certain actions by an employer, including the termination
of, or deprivation of employment opportunities against,
an employee who is at least 40 years old because of that
employee’s age.” (citing 29 U.S.C. §§ 623(a)(1)-(2), 631(a))).
“A plaintiff may support a claim under the ADEA
through either direct evidence or circumstantial
evidence.” Mazzeo, 746 F.3d at 1270. “To ultimately
prevail, ‘[a] plaintiff must prove by a preponderance of
the evidence (which may be direct or circumstantial), that
age was the “but-for” cause of the challenged employer
decision.’” Id. (quoting Gross v. FBL Fin. Servs., Inc., 557
U.S. 167, 177-78 (2009)). In Gross, the Court rejected the
application to ADEA claims of the burdenshifting scheme
used in Title VII mixed motive cases, i.e., if the plaintiff
presents evidence that an impermissible characteristic
played a motivating factor in the employment decision,
the burden of persuasion shifts to the employer to prove

73a
Appendix C
by a preponderance of the evidence that it would have
taken the same action in the absence of the impermissible
motivation. 557 U.S. at 171-74. Instead, the Court observed
that, unlike Title VII, the text of the ADEA does not
authorize a mixedmotive age discrimination claim, and
held that “a plaintiff bringing a disparatetreatment claim
pursuant to the ADEA must prove, by a preponderance
of the evidence, that age was the ‘but-for’ cause of the
challenged adverse employment action,” and “[t]he burden
of persuasion does not shift to the employer to show that it
would have taken the action regardless of age, even when
a plaintiff has produced some evidence that age was one
motivating factor in that decision.” Id. at 173-80.
Thus, “[t]he ADEA requires that ‘age [be] the “reason”
that the employer decided to act.’” Mora v. Jackson Mem.
Found., Inc., 597 F.3d 1201, 1204 (11th Cir. 2010) (quoting
Gross, 557 U.S. at 176). “Because an ADEA plaintiff must
establish ‘but for’ causality, no ‘same decision’ affirmative
defense can exist: the employer either acted ‘because
of’ the plaintiff’s age or it did not.” Id. (citing Gross, 557
U.S. at 180); see also Smith v. CH2M Hill, Inc., 521 Fed.
Appx. 773, 774-75 (11th Cir. 2013) (unpublished decision)
(explaining that it is not sufficient to allege that age
“substantially motivated” the challenged employment
decision, rather “[a]n age discrimination claim under the
ADEA . . . requires that age be the but-for cause of the
termination”); Avera v. Airline Pilots Ass’n Int’l, 436
Fed. Appx. 969, 978 (11th Cir. 2011) (unpublished decision)
(“Although a Title VII plaintiff may prove his case by
showing that his membership in a protected class played
a ‘motivating part’ in the employment decision, an ADEA

74a
Appendix C
plaintiff must prove that age was the ‘but for’ cause of the
employer’s adverse decision,” i.e., “the ADEA does not
permit a ‘mixed-motive’ claim for disparate treatment.”
(citing Gross and Mora)); Collins v. Fulton Cnty. Sch.
Dist., No. 1:12-CV-1299-ODE-JSA, 2012 U.S. Dist. LEXIS
187392, at *45 (N.D. Ga. Dec. 26, 2012) (“Under the ADEA,
a plaintiff must ultimately prove at trial that age was a
‘determinative factor’ in the employment decision, or, in
other words, that the decision at issue would not have
occurred absent the age discrimination.”), adopted in part
and modified in part on other grounds by 2013 U.S. Dist.
LEXIS 46388 (N.D. Ga. Feb. 27, 2013). 5
“Where, as here, a plaintiff proffers circumstantial
evidence to establish an ADEA claim, [the courts] apply
the burden-shifting framework established in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973).”6 Mazzeo,
746 F.3d at 1270 (citing Sims v. MVM, Inc., 704 F.3d
1327, 1332-33 (11th Cir. 2013)). “Under this framework,
a plaintiff must first establish a prima facie case of age
discrimination.” Id. (citing Chapman v. AI Transp.,
5. Plaintiff asserts that but-for causation is not the standard
at the summary judgment stage. (Doc. 83 at 28-29 (citing Ramirez
v. Bausch & Lomb, Inc., 546 Fed. Appx. 829, 833 (11th Cir. 2013)).
However, Plaintiff’s cited authority dealt with questions of causation
in a case brought under the Florida Whistleblower Act pursuant to
the district court’s diversity jurisdiction. See Ramirez, 546 Fed.
Appx. at 830. Further, Ramirez did nothing to change the “but-for”
requirement in ADEA claims that has been consistently applied by
the Eleventh Circuit.
6. Plaintiff does not point to direct evidence of discrimination.
(See generally Doc. 83).

75a
Appendix C
229 F.3d 1012, 1024 (11th Cir. 2000)). “If he does so, the
burden of production shifts to the employer ‘to articulate
a legitimate, nondiscriminatory reason for the challenged
employment action.’” Id. (quoting Chapman, 229 F.3d
at 1024). “If the defendant articulates at least one such
reason, the plaintiff is then given the opportunity to show
that the employer’s stated reason is merely a pretext for
discrimination.” Id. The Eleventh Circuit has made clear
that courts continue to apply the McDonnell Douglas
evidentiary framework to ADEA claims even after the
Supreme Court’s decision in Gross because the burden
of persuasion never shifts to the employer under that
framework. See Sims, 704 F.3d at 1332-33. The Eleventh
Circuit has cautioned, however, that “establishing the
elements of the McDonnell Douglas framework is not, and
never was intended to be, the sine qua non for a plaintiff
to survive a summary judgment motion in an employment
discrimination case.” Smith v. Lockheed Martin, 644
F. 3d 1321, 1328 (11th Cir. 2011). Rather, “the plaintiff
will always survive summary judgment if [s]he presents
circumstantial evidence that creates a triable issue
concerning the employer’s discriminatory intent.” Id. The
court explained that “[a] triable issue of fact exists if the
record, viewed in the light most favorable to the plaintiff,
presents ‘a convincing mosaic of circumstantial evidence
that would allow a jury to infer intentional discrimination
by the decisionmaker.’” Id. (quoting Silverman v. Bd. of
Educ., 637 F.3d 729, 733 (7th Cir. 2011)).

76a
Appendix C
ii.

Plaintiff’s Prima Facie Case7

“[A] plaintiff may establish a prima facie case for
an ADEA violation by demonstrating that: (1) he was a
member of a protected class; (2) he was subjected to an
adverse employment action; (3) he was qualified to do the
job; and (4) he was replaced by or otherwise lost a position
to a younger individual.” Mitchell v. City of Lafayette, 504
Fed. Appx. 867, 870 (11th Cir. 2013) (unpublished decision).
The fourth prong can also be satisfied by a showing that
the employer “treated employees who were not members
of the [plaintiff’s] protected class more favorably under
similar circumstances.” Washington v. UPS, 567 Fed.
Appx. 749, 751 (11th Cir. 2014) (unpublished decision).
Plaintiff has shown that he was a member of a
protected class for purposes of the ADEA, i.e., he was
40 years of age or older. See, e.g., Queen v. Wal-Mart
Stores East, L.P., No. 2:11-CV-00070, 2012 U.S. Dist.
LEXIS 105839, at *11 (N.D. Ga. July 30, 2012) (“At all
times during his employment with Wal-Mart, Plaintiff
was a member of the ADEA protected-class because he
was over 40 years old.”). He has also shown that he was
qualified to perform his job as evidenced by the fact that
he held the position of managing director since 1998, and
Defendant does not argue that Plaintiff was not qualified
for the position. (Def. SMF ¶ 4). It is uncontroverted that
7. Plaintiff’s response brief in opposition to summary judgment
focuses on the “convincing mosaic” analysis contemplated in Smith,
644 F. 3d at 1328. However, in an abundance of caution, the Court
assesses the merits of Defendant’s motion under both the McDonnellDouglas framework and the “convincing mosaic” approach.

77a
Appendix C
Defendant terminated his employment, and “termination
is an actionable materially-adverse employment action.”
Id. at *17. Finally, it is uncontroverted that Plaintiff was
replaced by a younger individual in Thomas Maxwell, who
is nine years younger than Plaintiff. (Def. SMF ¶ 134).
The Court therefore finds that, for summary judgment
purposes, Plaintiff has established a prima facie claim of
age discrimination.
iii. D e fe n d a nt’s L e g it i m at e , No n D i s c r i m i n a t o r y R e a s o n Fo r
Terminating Plaintiff’s Employment
The employer’s burden to articulate a legitimate,
non-discriminatory reason for its employment decisions
is one of production, not persuasion. Standard v. A.B.E.L.
Servs., 161 F.3d 1318, 1331 (11th Cir. 1998). This burden is
“exceedingly light.” Turnes v. Amsouth Bank, N.A., 36 F.3d
1057, 1060-61 (11th Cir. 1994) (internal quotation omitted).
Defendant has presented evidence that it terminated
Plaintiff’s employment because of his “recurrent patterns
of deficiencies,” which included discipline issued by three
separate VPs of administrative failures, failing to hold his
employees accountable, not meeting expectations, failing
to notify supervisors of service delays, administrative
lapses, inappropriate parking, failing to address late
items with his staff and falsely representing that he had
done so, failure to handle financial responsibilities, and
insubordination. (Doc. 57-1 at 8). The record includes the
disciplinary letters issued to Plaintiff from various VPs,
which corresponds with Defendant’s assertion of its reason

78a
Appendix C
for Plaintiff’s termination. (See Docs. 61-1, 61-2, 61-3, 61-4,
61-7). Specifically, Plaintiff’s November 2016 letter states:
A review of your disciplinary history
indicates you have received three letters
within the past twelve months:
1. November 3, 2016 —Warning Letter /
Termination 06-12-3T Insubordination/0613-3T Leadership Failure
2. August 11, 2016—Performance Reminder
03-13-DD Other Performance Violation
3. J u n e 1 6 , 2 0 1 6 — Wa r n i n g L e t t e r
0 6 -13 -L e a der sh ip Fa i lu r e Bot h t he
Performance Improvement Policy (P2-50)
and the Acceptable Conduct Policy (P2-5)
provide that three notifications of deficiency
within a twelve-month period normally
result in termination. Therefore, your
employment is terminated effective today.
(Doc. 61-7 at 4).
The Cou r t f inds Defendant has satisf ied its
“exceedingly light” burden of articulating a legitimate,
non-discriminatory reason for terminating Plaintiff’s
employment.

79a
Appendix C
iv.

Pretext

Because Defendant has articulated a legitimate,
non-discriminatory reason for terminating Plaintiff’s
employment, in order to survive summary judgment on
his ADEA discrimination claim, Plaintiff must “come
forward with evidence, including the previously produced
evidence establishing the prima facie case, sufficient to
permit a reasonable factfinder to conclude that the reasons
given by the employer were not the real reasons for the
adverse employment decision.” Chapman, 229 F.3d at 1024
(quoting Combs v. Plantation Patterns, Meadowcraft,
Inc., 106 F.3d 1519, 1528 (11th Cir. 1997)). The court’s
role at this juncture is to “evaluate whether the plaintiff
has demonstrated such weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons for its action
that a reasonable factfinder could find them unworthy of
credence.” Combs, 106 F.3d at 1538 (internal quotation
omitted). In making the required pretext showing, “[a]
plaintiff is not allowed to recast an employer’s proffered
nondiscriminatory reasons or substitute his business
judgment for that of the employer.” Chapman, 229 F.3d at
1030. Rather, “[p]rovided that the proffered reason is one
that might motivate a reasonable employer, an employee
must meet that reason head on and rebut it, and the
employee cannot succeed by simply quarreling with the
wisdom of that reason.” Id.
Here, Plaintiff argues that “[t]he record will cast
serious doubt on Defendant’s ‘legitimate reasons for
termination’ and show that a reasonable jury could find

80a
Appendix C
pretext.” (Doc. 83 at 7). The Court finds that none of
these arguments is sufficient to create a genuine issue of
material fact on whether Defendant’s reasons were pretext
for age discrimination.
For one, Plaintiff argues that Stephens’ comments
about Plaintiff’s age in May 2016 constitutes evidence that
Stephens’s real reason for disciplining and terminating
him was based on his age. (Doc. 83 at 15). Plaintiff testified
that in May 2016, Stephens asked Plaintiff “if I was going
to retire and how old I was and specifically if I wanted to
continue to do this and why would I, given what my age
was, and would I be able to keep up.” (Pl. Dep. at 181:611). In his declaration, Plaintiff stated that Stephens
“encouraged me to move on and let the ‘young guys’ take
over.” (Doc. 83-17 ¶ 20).
“A plaintiff can [] demonstrate pretext by showing
that the decision maker made discriminatory remarks.”
Ritchie v. Indus. Steel, 426 Fed. Appx. 867, 873 (11th
Cir. 2011) (citing Damon v. Fleming Supermarkets of
Fla., Inc., 196 F.3d 1354, 1362 (11th Cir. 1999)). “Such
remarks are evidence of pretext because they shed
light on the decision maker’s state of mind at the time
that he made the challenged employment decision.” Id.
However, “stray remarks that are isolated and unrelated
to the challenged employment decision are insufficient
to establish a pretext.” Id. (citing Rojas v. Fla., 285 F.3d
1339, 1342-43 (11th Cir. 2002)). In Ritchie, pretext in an
age discrimination case could not be shown where the
plaintiff alleged the decision-maker frequently referred to
him as “old man” and made other comments about his age

81a
Appendix C
on two occasions as Plaintiff did not “link those statements
to the decision to terminate his employment.” Id. at 874.
Here, Plaintiff has pointed to only one occasion on
which Stephens made mention of his age and has provided
no evidence that it was linked to the decision to terminate
him. At worst, these are merely stray remarks unrelated
to Plaintiff’s termination. See Ritchie, 426 Fed. Appx. at
873. Moreover, Plaintiff testified that the conversation
took place on approximately May 16, 2016—over five
months before Plaintiff was suspended in late October
2016 and ultimately terminated on November 3, 2016. (See
Doc. 83-17 ¶ 20). Finally, it is undisputed that there were
four other managing directors in Plaintiff’s region over 50
years old. (See Doc. 83-2 ¶ 6). Settles is only three years
younger than Plaintiff, and Willis is four years younger
than Plaintiff. (Pl. Dep. at 142:2-19). Yet these individuals
were not issued discipline as frequently as was Plaintiff,
suggesting that Stephens did not have a discriminatory
intent with regard to age. (Doc. 57-14 ¶ 5; Willis Dep. at
30:13-15). Plaintiff’s replacement was also over 50 years
old. (See Doc. 83-2 ¶ 134). Simply put, the age-related
remarks alleged to have been uttered by Stephens in May
2016 are not sufficient to create an issue of fact on whether
Stephens would not have terminated Plaintiff but for his
age. See, e.g., Thomas v. Dolgencorp, LLC, 645 Fed. Appx.
948, 951 (11th Cir. 2016) (unpublished decision).
Plaintiff also argues that his termination did not
adhere to FedEx’s progressive discipline policy because
Stephens did not verbally counsel him before issuing
written discipline. (Doc. 83 at 18). Plaintiff cites to the

82a
Appendix C
testimony of VP Owens testimony, who stated that a
supervisor should sit down with an employee and discuss
a plan for improvement before issuing written discipline.
(See Owens Dep. at 34:24-35:21). While Stephens may
not have adhered to the policy as stated by Owens on
every occasion, the record demonstrates that Plaintiff
was informally counseled on several areas of concern that
became the subject of his written discipline. For instance,
on April 20, 2016, Stephens discussed his performance
expectations with all the managing directors and provided
to the managing directors, via email, a document titled
“General Admin Expectations.” (Pl. Dep. at 54:8-55:3,
60:3-61:10; Doc. 61-8; Doc. 61-9 at 2; Def. SMF ¶ 45; Doc.
83-2 ¶ 45). This document stated the following with regard
to PRISM tasks: “All members of management must
review DUE screens by the first week of every month,
with all activities completed no later than the 15th of the
noted period.” (Doc. 61-8 at 3). Stephens reiterated his
expectation to managing directors in an email dated May
17, 2016, which reflected that untimely compliance with
PRISM tasks was “beyond unacceptable at the M[anaging]
D[irector] level.” (See Doc. 61-9 at 2-3). Yet, Plaintiff’s June
16, 2016 disciplinary letter stated that Plaintiff still had
failed to comply with the expectation that all PRISM tasks
be completed by the 15th of the month. (Doc. 61-3 at 2).
Plaintiff’s August 11, 2016 letter concerned inaccurate
travel and expense reports, an inaccurate requisition for
extra staff, and service failures resulting from failed
process control, an air strike, overlooked and misrouted
flights, and unacceptable audit ratings. (Doc. 61-4 at 2-3).
Prior to issuing this letter, Stephens counseled Plaintiff

83a
Appendix C
in emails about his service failures (Pl. Dep. at 21:2322:4) and his poor audit results (Doc. 61-4 at 73), and he
emailed Plaintiff about a missing expense report (id. at 19).
Plaintiff also testified that Stephens called several times
about his unacceptable audit scores and an inaccurate
expense report. (Pl. Dep. At 91:10-17, 93:25-94:12). While
the record does not show that Stephens provided Plaintiff
with informal counseling for every instance included on
the August 11 disciplinary letter, the record does not
demand a conclusion that Defendant’s policy required
informal counseling before issuing discipline. For instance,
Shannon Brown testified that “if an employee—or the
manager feels that the employee is not doing what they’re
supposed to do, then they can issue any form of discipline.”
(Shannon Brown Dep. at 33:8-11). Brown further testified
that that he did not think a conversation was required by
policy before writing an employee up. (Id. at 31:2-12). And
while Defendant’s attached discipline policy states that
managers “may choose to counsel the employee about
acceptable conduct[,]” the policy is silent on whether a
conversation is required or whether managers “may . . .
counsel” employees concerning acceptable conduct using
other means. (Doc. 61-28 at 6). In light of the testimony
from Owens that a manager should try to provide
counseling before imposing discipline, the Court will
examine whether record evidence supports a conclusion
that Plaintiff was counseled with respect to the subject
matter of the disciplinary letters.
With regard to Plaintiff’s final disciplinary letter
issued on November 3, 2016, the record demonstrates
that Plaintiff was counseled for several of the violations

84a
Appendix C
the letter cites. First, Plaintiff and Stephens developed a
performance agreement on August 12, 2016, about which
they communicated directly. (Stephens Dep. at 118:3-10;
Pl. Dep. at 41:4-11; Doc. 61-10 at 2-3). The performance
agreement addressed areas of concern with regard
to Plaintiff’s performance, which included submitting
accurate travel requests and expense reports, protecting
sensitive information, performing well on audits, comply
with requisitions requirements, displaying effective
leadership, and eliminating “operational mishaps.” (Doc.
61-10 at 2-3). Further, emails of record from Stephens
to Plaintiff and from Human Resources Advisor George
Sims to Stephens demonstrate that Stephens directed
Plaintiff to take specific measures regarding Baxter’s
transfer and leave of absence approval. (Doc. 61-7 at
13; Doc. 61-7 at 16). Stephens also directed Plaintiff to
“eliminate[]” the use of TD delay codes. (Doc. 61-7 at 34).
And Plaintiff was instructed not to park his care in the
secured lot by security on September 7, 2016. (Id. at 17).
Plaintiff’s November 11 letter references subject matter
deficiencies that had already been addressed in by previous
instruction and counseling, i.e., his team’s continued use of
TD delay codes, his failure to report a service failure, and
his noncompliance with Stephens’s directions associated
with the transfer of Baxter to Indianapolis. (Doc. 61-7 at
2-3). In short, even if a reasonable jury could conclude
that FedEx’s discipline policy required counseling before
issuing discipline (consistent with the testimony of Owens),
and that this policy was not followed on certain occasions,
the evidence of record demonstrates that Stephens
satisfied even that (disputed) policy regarding several
performance areas on each of Plaintiff’s disciplinary

85a
Appendix C
letters. The conduct which was the subject of informal
counseling, standing alone or together, provides ample
support for Defendant’s legitimate, non-discriminatory
reasons for terminating Plaintiff.
Plaintiff makes a series of related arguments in
support of the contention that he was unfairly terminated.
(See Doc. 83 at 8 (arguing that Plaintiff was “target[ed] with
a flurry of discipline”); id. at 19-20 (arguing that Plaintiff
was held to a different standard than other managing
directors); id. at 20-27 (arguing that Plaintiff’s discipline
was groundless)). The undersigned finds that these
arguments, which are aimed at the unfairness of Plaintiff’s
termination, fail to create an issue of fact as to whether
Stephens in fact terminated Plaintiff because of his age.
Plaintiff’s contention that he was singled out and treated
unfairly in comparison with his younger peers lacks merit.
Plaintiff has not shown that younger managing directors
engaged in the same conduct for which he was disciplined,
such as obtaining permission from security managers to
park in a secured area without Stephens’s knowledge (id.
at 2); failing to communicate with Stephens’s office and
ensure that phones were covered (id.); failing to provide
counseling to his management team regarding the aircraft
accident despite representing that he had done so (Doc.
61-1 at 2); failing to demote an employee despite directive
from his supervisor (Doc. 61-7 at 2); failing to stay timely
with PRISM tasks (Pl. Dep. at 54:17-57:19); improperly
distributing privileged information (Doc. 61-4 at 3); and
failing to eliminate the use of TD delay codes despite a
specific directive to do so (Pl. Dep. at 81:17-25).

86a
Appendix C
Moreover, Plaintiff does not dispute that he indeed
engaged in much of the conduct for which he was
disciplined. For example, Plaintiff does not deny that
he had several late and overdue managerial “PRISM”
tasks, some of which were eleven months overdue, as
indicated in Stephens’s first Performance Reminder
letter to Plaintiff. (Doc. 83-2 at 42; Doc. 61-3 at 2). Nor
does Plaintiff dispute that he received expectations
that PRISM items were due “by the first week of every
month, with all activities completed no later than the
15th of the noted period.” (Doc. 61-8 at 3; see also Pl.
Dep. at 60:3-12). Plaintiff also indicated he understood
that Stephens believed noncompliance with PRISM tasks
was unacceptable among managing directors. (Pl. Dep.
at 62:23-64:5; see also Doc. 61-9 at 2). While Plaintiff
argues that Stephens unfairly disciplined him about late
PRISM items, Laszewski testified that managing director
Lewis “didn’t have any late entries” and Settles’s late
entries were “addressed and corrected in accordance
with the specified time frame, which is why he didn’t get
any discipline.” (Laszewski Dep. at 93:11-12). Regarding
Stephens’s second disciplinary letter, Plaintiff testified
that there were inaccuracies on travel requests (Pl. Dep.
at 67:15-21); he submitted the wrong requisition for a fulltime position (id. at 68:24-69:6); and he failed to review
expense reports before submitting them (id. at 75:18-20).
Plaintiff contends that his final disciplinary letter,
issued on November 3, 2016, contains “falsehoods” that
could have been cleared up “by running a simple inquiry[.]”
(Doc. 83 at 22). However, Plaintiff’s arguments boil down
to assertions of why Stephens should not have issued him

87a
Appendix C
discipline. For instance, Plaintiff asserts that he obtained
approval to park in a secured area and that Stephens
“could have learned this if he ever bothered to ask[.]” (Id.).
It is undisputed that Security Director Alex Kerr sent an
email requiring managing directors to park outside the
secured lot. (Doc. 61-19 at 3). The record indicates that
Plaintiff emailed Kerr to state that he should be excepted
on certain occasions. (Id. at 2). Kerr replied that he did
“not see an issue with anything you have described we just
need to make sure that this is properly communicated . . .
I will call in a few just finished a meeting.” (Id.). In reply,
Plaintiff stated that he would “take it from here . . . Thanks
for the support.” (Id.). Beyond this, Plaintiff testified that
he did not recall discussing the issue with Kerr (Pl. Dep.
at 151:18-21), and the record indicates that he simply
attempted to obtain permission from Kerr’s subordinates,
Rich Landsiedel and Lois Burnett. (Doc. 61-20 at 2). An
email from Kristina Burchfield, a managing director of
security, to Stephens in September 2016 indicates that
when confronted by a different security manager, Stan
Carson, Plaintiff told Carson that he required a secured
lot parking spot because “his [] knee is bad[.]” (Doc. 77-3
at 6).
Regarding Stephens’s reference to Plaintiff’s frequent
use of TD delay codes, despite being told by Stephens “I
want the use of TD delays eliminated[,]” (Doc. 61-11 at 2),
Plaintiff testified that he interpreted Stephens to mean
“that he wanted us to start ratcheting them down and get
them eliminated over a certain time period.” (Pl. Dep. at
83:3-5). Plaintiff also testified that he did not tell his team
to stop using the use of TD codes. (Id. at 190:4-10).

88a
Appendix C
Finally, Plaintiff argues that he was unfairly
disciplined for insubordination concerning his assignment
of Baxter to an hourly position in Indianapolis. (Doc. 83
at 25-27). However, the record indicates that Plaintiff
was expressly directed “not to allow Ken [Baxter] to
be released from his assigned as CAER manager or be
placed on [a leave of absence] to seek another position
in Indianapolis. (Doc. 61-21 at 2; see also Doc. 61-22
at 2 (email from Stephens to Plaintiff stating “This is
why I explicitly advised you NOT to simply demote and
place this individual on a [leave of absence]. . . . In your
situation, I don’t understand why you wouldn’t comply
with my direction back on 09/01.”)). In his deposition
testimony, Plaintiff agreed that Stephens wanted to wait
to assign Baxter a position because he believed Baxter
“was trying to circumvent the hiring process and obtain a
manager position[.]” (Pl. Dep. at 163:14-20). Plaintiff also
testified that the position in which he placed Baxter was a
“demotion” (see id. at 127:20-23), in contradiction with his
assertion that he “did not disobey Stephens’s instruction
because he did not demote Baxter.”8 (Doc. 83 at 26).
8. An email from Sims to Stephens shortly after the incident
contradicts Plaintiff’s testimony that he did not disobey Stephens’s
instructions or demote Baxter:
Joe,
As we discussed, during a recent conversation with
Rod Melvin the topic regarding the status of Ken
Baxter surfaced. At that time, Rod stated that he
was told by you explicitly not to allow Ken to be
released from his assignment as [] manager or be
placed on a[ leave of absence] to seek another position

89a
Appendix C
Despite the fact that Plaintiff has not disputed
much of the conduct for which Stephens disciplined him,
Plaintiff’s beliefs about whether he should have been
disciplined are ultimately immaterial because the pretext
inquiry is concerned not with whether Plaintiff was fairly
disciplined, but whether Stephens believed the discipline
was warranted. See Woodard v. Fanboy, L.L.C., 298 F.3d
1261, 1265 (11th Cir. 2002) (unpublished decision) (finding
that pretext is not established by showing the decisionmaker “was mistaken about the facts upon which [it]
based [its] alleged non-discriminatory decision”); Elrod
v. Sears, Roebuck & Co., 939 F.2d 1466, 1470 (11th Cir.
1991) (“The inquiry of the ADEA is limited to whether
[the employer] believed that [the plaintiff] was guilty . . .
and if so, whether this belief was the reason behind [the
plaintiff’s] discharge.”); Hawkins v. Ceco Corp., 883 F.2d
977, 980 n. 2 (11th Cir. 1989) (that the employee did not
in fact engage in misconduct reported to the employer
is irrelevant to the question whether the employer
believed the employee had done wrong). Here, Plaintiff’s
disagreements about the nature of discipline he received
do not create an issue of fact on whether Stephens honestly
believed that Plaintiff engaged in the conduct for which
he was disciplined. See Davis v. Mgmt. Tech., 193 Fed.
Appx. 872, 875 (11th Cir. 2006) (unpublished decision)
(explaining that the plaintiff’s “denial that he violated
in Indianapolis. Rod then stated that although he
received this directive from you, he decided to demote
Ken to a Material Handler position so as to facilitate
the move back to INDY[.]
(Doc. 77-4 at 1).

90a
Appendix C
ManTech’s policy [was] insufficient to prevent summary
judgment” where he did not rebut the decisionmaker’s
explanation for believing that he had violated the policy).
Furthermore, Plaintiff’s “burden is to show not just that
[Defendant] proffered reasons for firing her were illfounded but that unlawful discrimination was the true
reason.” See Alvarez v. Royal Atl. Developers, Inc., 610
F.3d 1253, 1267 (11th Cir. 2010). Plaintiff has not met that
burden because he has not developed evidence sufficient
to allow a jury to conclude that Stephens did not believe
he engaged in the conduct cited in the discipline letters
that formed the basis for his termination, i.e., failing to
communicate with Stephens, evidencing leadership failure
by failing to address late PRISM tasks with Plaintiff’s
senior managers, submitting inaccurate expense reports
and inaccurate employment requisitions, failing to take
responsibility for administrative shortcomings, failing to
follow Stephens’s directions regarding Baxter’s position in
Indianapolis, failing to report service failures, and failing
to discontinue the use of TD codes. (See Docs. 61-3 at 2;
61-4 at 2-5; 61-7 at 2-3).
For the above reasons, none of Plaintiff’s arguments in
opposition to Defendant’s motion create an issue of fact on
whether Defendant’s articulated reasons for terminating
him were pretext for age discrimination under the
McDonnell-Douglas burden-shifting framework. The
undersigned now considers whether Plaintiff has produced
circumstantial evidence of discriminatory intent through
the “convincing mosaic” standard described in Smith v.
Lockheed.

91a
Appendix C
v.

Convincing Mosaic

Plaintiff argues, “If the evidence is viewed through
the correct lens in favor of the non-moving party, the
record will present a convincing mosaic of circumstantial
evidence to allow a reasonable jury to infer intentional
discrimination by the decisionmaker.” (Doc. 83 at 6-7).
Plaintiff relies on many of the same assertions discussed
above with regard to the pretext inquiry, including his
denials of misconduct, his disagreement with the severity
or accuracy of Stephens’s discipline, and his position
that he was treated differently from younger managing
directors. (See id. at 7-27). As previously discussed,
those allegations fail to suggest a reasonable inference of
discriminatory intent. See, e.g., Flowers, 1 F. Supp. 3d 1363,
1381 (N.D. Ga. 2014) (noting that “most of the evidentiary
tiles [the plaintiff] proffers were discarded as insufficient
or irrelevant in considering his other arguments against
summary judgment” and “cannot now be reassembled
to create a convincing mosaic of discriminatory intent”).
Plaintiff also alleges that a history of discrimination
complaints leveled at Stephens gives rise to an inference
that he discriminated against Plaintiff. (Doc. 83 at 7-9).
Plaintiff cites evidence that Stephens has been accused
of age discrimination in the past. (See Pl. SMF ¶¶ 13-18).
This type of “me too” evidence can be relevant to the issue
of Stephens’s intent or motive and thus may be admissible
at trial under Fed. R. Evid. 404(b). See Goldsmith v.
Bagby Elevator Co., Inc., 513 F.3d 1261, 1286-87 (11th
Cir. 2008). However “if the ‘me too’ evidence is too far
removed from the case at hand, it may be excluded as

92a
Appendix C
overly prejudicial[.]” Jackson v. UPS, Civil Action No.
12-CV-01753-WMA, 2013 U.S. Dist. LEXIS 143755, at
*35-36 (N.D. Ala. Oct. 4, 2013) (citing Fed. R. Evid. 403),
aff’d 2014 U.S. App. LEXIS 22092 (11th Cir. Nov. 20, 2014).
In this case, the “history” of complaints against
Stephens is minimally probative because there is no
indication that the allegations of discrimination were
substantiated. In fact, two of the age-related complaints
Plaintiff cites—filed by Calvin Casey and Raymond
Flint—were found to be unsubstantiated by Defendant’s
internal complaint process after an investigation. (See
Docs. 70-1 at 2; 71-2 at 2). The investigative report
concerning Raymond Flint, conducted two years before
Plaintiff was terminated, stated that “[t]he termination
data does not reveal a pattern of targeting since discipline
and involuntary terminations were administered to
managers of varied ages including some under the age of
40.” (Doc. 71-2 at 2).
Simply put, the accusations of discrimination against
Stephens fail to create a genuine fact issue on whether
Stephens possessed a discriminatory intent in terminating
Plaintiff. See Jackson, 2013 U.S. Dist. LEXIS 143755, at
*36 (past discrimination accusations were of “minimal
probative value” because they involved charges that “were
not pursued and for which no findings of fact were ever
made”); Andazola v. Logan’s Roadhouse, Inc., Civil Action
No. CV-10-S-316-W, 2013 U.S. Dist. LEXIS 73775, at
*6-7 (N.D. Ala. May 24, 2013) (noting that while “district
courts do not apply a blanket, per se rule excluding ‘me
too’ evidence[,] . . . more often than not, ‘me too’ evidence

93a
Appendix C
is not admitted at trial because the probative value of
such evidence is judged to be ‘substantially outweighed by
the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay,
waste of time, or needless presentation of cumulative
evidence’ “) (quoting Fed. R. Evid. 403); Johnson v.
Interstate Brands Corp., 351 Fed. Appx. 36, 41 (6th Cir.
2009) (unpublished decision) (“trial courts regularly
prohibit ‘me too’ evidence from or about other employees
who claim discriminatory treatment because it is highly
prejudicial and only slightly relevant”) (citing Schrand
v. Fed. Pac. Elec. Co., 851 F.2d 152, 156 (6th Cir. 1988)).
Plaintiff has failed to establish a “convincing
mosaic” of circumstantial evidence creating a reasonable
inference that his termination was based on his age.
Furthermore, the full scope of circumstantial evidence
includes substantial evidence suggesting the termination
was not the result of any discriminatory intent. For
example, Plaintiff’s replacement, Thomas Maxwell, was
approximately 51 years old at the time he was hired,
which is within Plaintiff’s protected class. (Def. SMF
¶ 134; Doc. 83-2 ¶ 134). This fact cuts against the notion
that Stephens maintained a discriminatory intent based
on age. See Shaw v. ASB Greenworld, Inc., Civil Action
No. 7:05-CV-82(HL), 2007 U.S. Dist. LEXIS 49249, at
*13 (M.D. Ga. July 9, 2007) (finding no circumstantial
evidence of discrimination where the plaintiff’s 51-year old
“replacement was not outside the age group protected by
the ADEA”). Additionally, four other managing directors
in AGFS were in their 50s and reported to Stephens. (Def.
SMF ¶ 6). Willis testified that Stephens “was very clear on

94a
Appendix C
what he expected” and “was one of the best bosses I ever
had.” (Willis Dep. at 29:21-22, 31:21-22). In his declaration,
Settles stated that he “was excited and was fine with”
Stephens becoming VP of AGFS. (Doc. 57-14 ¶ 9).
Plaintiff ’s failure to appeal the issuance of his
disciplinary letters is another piece of circumstantial
evidence against finding that a jury could infer Stephens
had a discriminatory intent. Plaintiff’s letters included
an addendum that stated the following in relevant part:
“Should you in good faith believe this action is unfair, you
have the right to enter the Guaranteed Fair Treatment
Procedure/EEO Complaint process.” (Doc. 61-3). Yet,
prior to his suspension, Plaintiff did not submit any appeal
or written internal complaints through FedEx’s internal
complaint process. (See Pl. Dep. at 27:19-28:1, 236:12-22).
Plaintiff’s failure to take advantage of this process, though
not dispositive of his claims, is further circumstantial
evidence in favor of a finding that no reasonable juror
could infer the letters were issued with discriminatory
intent. See, e.g., Simmons v. Neumann, Case No.
97-8653-CIVSIMONTON, 1999 U.S. Dist. LEXIS 20664,
at *48 (S.D. Fla. Nov. 5, 1999) (denying summary judgment
on Plaintiff’s disparate treatment claim where “Plaintiff
never complained to anyone . . . that [his] evaluations were
racially motivated) (emphasis in original).
Finally, the Court notes that this case stands in
contrast to those in which courts have found a “convincing
mosaic,” including Smith. In Smith, the court found that
the plaintiff, a white supervisor who was terminated for
sending another employee a racially insensitive e-mail, was
not required to produce evidence of a comparator, i.e., “a

95a
Appendix C
black supervisor,” in order to satisfy his prima facie case
under McDonnell Douglas because “the record contained
sufficient evidence to allow a jury to infer that Lockheed
fired [the plaintiff] because he is white.” Smith, 644 F.3d
at 1327-28. That evidence included: evidence of more
favorable treatment of nonwhite employees who engaged
in similar misconduct (distribution of racially insensitive
or derogatory e-mails in violation of Lockheed’s “zero
tolerance” policy); evidence of “a substantial incentive
to discipline white employees more harshly than black
employees” based on an employee (a white supremacist)
who went on a shooting spree at a Lockheed facility,
resulting in multiple lawsuits, an EEOC investigation,
and negative publicity; and evidence that “Lockheed
consciously injected race considerations into its discipline
decision making without an adequate explanation for
doing so,” i.e., a matrix used by the disciplinary review
committee that noted the race of the accused employees.
Smith, 644 F.3d at 1328-46.
Similarly, in another case, the court found that the
plaintiff, a female firefighter/paramedic, had “presented
a ‘convincing mosaic’ of circumstantial evidence by
which a reasonable jury could have inferred that the
City was motivated by discriminatory intent to suspend
and ultimately terminated Smith.” Smith v. City of New
Smyrna Beach, No. 13-13368, 2014 U.S. App. LEXIS
20772, at *33 (11th Cir. Oct. 23, 2014) (unpublished
decision). The court noted: evidence that the Deputy
Chief “harbored animus against Smith because of
her sex, in view of his comments to Smith about her
pregnancy and his indifference to her complaints of

96a
Appendix C
discrimination”; evidence that other female firefighters
also experienced discriminatory treatment, including
differential application of work rules; evidence of sexist
and derogatory comments by superiors and the creation
of “new rules based on gender”; and evidence that the
plaintiff was “systematically treated” worse than similarly
situated male firefighters. Id. at *27-30. Likewise, in
Holland v. Gee, the Eleventh Circuit found a “convincing
mosaic of circumstantial evidence” to support the jury’s
finding that the plaintiff’s pregnancy was a motivating
factor for her termination. 677 F.3d 1047, 1063 (11th Cir.
2012). That “convincing mosaic” included evidence that
after the plaintiff informed her employer of her pregnancy,
she was treated differently from male employees, and her
pregnancy became a factor in transferring her and “was
a subject of discussions that led to her termination.” Id.
at 1062-63.
Plaintiff has not pointed to evidence similar to that
cited in the above described cases in support of his claim.
Even accepting as true Plaintiff’s evidence that Stephens
asked him about his age and retirement plans in May
2016, as discussed above, he fails to tie those comments to
the event of his termination such that a reasonable juror
could an infer Stephens possessed discriminatory intent.
See Connor v. Bell Microproducts-Future Tech, Inc.,
492 Fed. Appx. 963, 967 n.1 (11th Cir. 2012) (unpublished
decision) (“Conn[e]r’s evidence, however, does not compare
with that presented in Smith . . . . Indeed, [he] did not
present sufficient evidence tying Bell’s decisions to his
age or race,” or evidence of more favorable treatment of
similarly situated employees.). In short, Plaintiff has failed

97a
Appendix C
to adduce a sufficiently “convincing mosaic” of evidence
such that a genuine issue of facts exists as to whether he
was terminated on the basis of his age.
For the foregoing reasons, it is RECOMMENDED
that Defendant’s motion for summary judgment be
GRANTED on Plaintiff’s ADEA discrimination claim.
2.

Plaintiff’s Discrimination Claim Under
Section 1981

Defendant also seeks summary judgment on Plaintiff’s
race discrimination claim under § 1981. The McDonnell
Douglas framework, already discussed above, also applies
to Plaintiff’s section 1981 race discrimination claim. See
Lewis v. Metro. Atlanta RTA, 343 Fed. Appx. 450, 453, n. 4
(11th Cir. 2009) (unpublished decision) (section 1981 claims
are analyzed under the McDonnell Douglas framework).
First, Plaintiff has established a prima facie claim of
race discrimination under section 1981. Plaintiff satisfies
the first element because, as an African-American, he
belongs to a protected class. He satisfies the second
and third elements for the same reasons referenced in
his ADEA claim: his tenure at FedEx showed he was
qualified for the job and his termination was an adverse
employment decision. Finally, Plaintiff satisfies the fourth
element by pointing to evidence that he was replaced
by a member outside his protected class, i.e. Thomas
Maxwell, who is Asian, not African-American. (Def. SMF
¶ 134). As more fully outlined above, Defendant satisfies
its “exceedingly light” burden to articulate a legitimate,

98a
Appendix C
nondiscriminatory reason for terminating Plaintiff by
stating that his discharge was based on a “recurrent
pattern of deficiencies” spanning the tenures of three
VPs and resulting in repeated disciplinary reminders,
warnings, and letters. (Doc. 57-1 at 8).
Plaintiff does not appear to extend his assertions
of circumstantial evidence to race discrimination -Plaintiff’s argument section is titled, “PLAINTIFF
HAS SET FORTH A ‘CONVINCING MOSAIC OF
CIRCUMSTANTIAL EVIDENCE’ PROVING HE
WAS TERMINATED BECAUSE OF HIS AGE AND IN
RETALIATION FOR PROTECTED ACTIVITY.” (Doc.
83 at 7). Regardless, the Court finds that Plaintiff has not
created a genuine issue of fact on pretext or pointed to a
“convincing mosaic” of circumstantial evidence from which
a reasonable juror could infer racially discriminatory
intent. For one, the undersigned has already reviewed and
rejected Plaintiff’s arguments in support of his assertion
challenging the basis for his discipline and termination—
arguments that Plaintiff may have intended to also form
support assertions of pretext or a “convincing mosaic”
under section 1981, though Plaintiff does not so state in
his response brief. (See Section I.B.1.iv-v supra).
Further, even though a section 1981 claim does not
require “but-for” causation, see Davis v. Infinity Ins.
Co., Case No. 2:15-cv-01111-JHE, 2018 U.S. Dist. LEXIS
98260, at *9 (N.D. Ala. June 12, 2018), Plaintiff’s case is
even weaker in the race discrimination context because it
is undisputed that Stephens, the ultimate decision-maker
in this case, did not make any race-related comments

99a
Appendix C
to Plaintiff during the course of Plaintiff’s employment
with Defendant. (See Pl. Dep. at 26:22-24). And despite
testifying that Pigors discriminated against him on the
basis of race, Plaintiff never experienced “any conversation
with [] Pigors in which [his] race, [his] ethnicity, [his] color,
came up[.]” 9 (Id. at 143:11-15). The racial remark Plaintiff
raises in support of his race discrimination claim was
uttered by Pigors at a managers’ meeting during the 2008
presidential campaign between Barack Obama and John
McCain. (Pl. Dep. at 143:19-144:9). Plaintiff stated that
Pigors made a joke about making sure that all managers
voted for the Republican candidate. (Id.). Pigors admitted
to making this comment in jest, stating that it was based
on FedEx’s contentious relationship at that time with
labor unions. (Pigors Dep. at 38:2-39:5). However, Pigors’s
9. In his Amended Complaint, Plaintiff makes reference to an
unnamed source who told him AGFS “was ‘too dark[]’ “ and AGFS
“had been referred to as the ‘Jungle Region.’ “ (Doc. 14 ¶¶ 20-21).
It appears, however, that these comments were meant to support
his claim that he was “denied the opportunity to apply for the VP
position because of his race.” (Id. ¶ 17). In any event, Plaintiff testified
that he could not identify the individual who made the comments, just
that fellow managing director Joe Brown had heard the comments made
from someone else. (Pl. Dep. At 140:15-22). Plaintiff does not indicate
how these comments were tied to his own adverse employment action.
Even if they formed the basis for circumstantial evidence, they are
insufficient, on their own, to create an issue of fact on whether Stephens’s
discriminated against Plaintiff because of his race because “[t]here
is no indication . . . [the comments] can be reduced to admissible
evidence at trial.” See Evans v. McClain, 131 F.3d 957, 962 (11th
Cir. 1997) (affirming district court’s dismissal of evidence “based
on gossip, common knowledge, and [a] hearsay statement of an
unidentified representative”).

100a
Appendix C
comment is not even remotely “[]related to [Plaintiff’s]
challenged employment decision” and therefore fails to
support Plaintiff’s race discrimination claim. Ritchie, 426
Fed. Appx. 867 at 873.
In short, Plaintiff has not adduced sufficient evidence
that Stephens’s decision to terminate him was pretextual
or that a “convincing mosaic” of circumstantial evidence
exists sufficient to infer racial intent. Accordingly, it is
RECOMMENDED that Defendant’s motion for summary
judgment as to Plaintiff’s race discrimination claim under
section 1981 be GRANTED.
3.

ADEA and Section 1981 Retaliation

Finally, Defendant seeks summary judgment on
Plaintiff’s retaliation claim under the ADEA and section
1981. (Doc. 57-1 at 18-25). Because Plaintiff’s retaliation
claims under both statutes are based on the same facts, the
undersigned analyzes the claims together. “The analytical
framework for retaliation claims under Title VII, section
1981, and the ADEA is the same.” Monaghan v. Worldpay
United States, Inc., Civil Action No. 1:16-CV-0760-CCLTW, 2017 U.S. Dist. LEXIS, at *29 (N.D. Ga. Aug. 18,
2017) (citing Edwards v. Prime, Inc., 602 F.3d 1276, 1300
(11th Cir. 2010)) (additional citations omitted), adopted by
2017 U.S. Dist. LEXIS 219038 (N.D. Ga. Sept. 27, 2017).
“To establish a prima facie case of retaliation, a plaintiff
must show that: (1) []he engaged in a statutorily protected
activity; (2) []he suffered a materially adverse employment
action; and (3) there was a causal link between the two
events.” Redway v. Univ. of Miami, Case No. 17-CV-

101a
Appendix C
23326-WILLIAMS/LOUIS, 2018 U.S. Dist. LEXIS
184083, at *20-21 (S.D. Fla. Oct. 25, 2018) (citing Jarvis
v. Siemens Med. Sols. USA, Inc., 460 Fed. Appx. 851, 858
(11th Cir. 2012) (unpublished decision)).
The record indicates that Plaintiff complained of age
discrimination and retaliation verbally to Chief Human
Resources Officer Shannon Brown and Wanda English
three times before his termination. (Pl. SMF ¶¶ Pl. Dep.
at 27:13-15, 28:2-16, 29:15-34:23). As such, Plaintiff easily
satisfies the first element as to his retaliation claim under
the ADEA. See Bowdish v. Fed. Express Corp., 699 F.
Supp. 2d 1306, 1324 (W.D. Okla. 2010) (the plaintiff’s verbal
complaints constituted protected activity). Plaintiff has
not referenced material in his verbal complaints to Brown
and English having to do with his race. (See Pl. SMF ¶¶ 2224). The verbal complaints are therefore not protected
activity under section 1981. However, Plaintiff’s November
2, 2016 email constitutes protected activity of both age
and race discrimination, since it asserts his belief that his
forthcoming termination were based on both protected
characteristics. (See Doc. 61-12 at 2). Plaintiff satisfies
the second element as to both age and race because it is
undisputed that he was terminated from employment.
As to the third element, however, Plaintiff has not
created an issue of fact regarding a causal link between
his complaints and the discipline he received or his
termination. “To establish the causal connection element,
‘a plaintiff need only show that the protected activity and
the adverse action were not wholly unrelated.’” Brungart
v. BellSouth Telecomms., Inc., 231 F.3d 791, 799 (11th Cir.

102a
Appendix C
2000) (quoting Clover v. Total Sys. Servs., Inc., 176 F.3d
1346, 1354 (11th Cir. 1999)). “At a minimum, a plaintiff
must generally establish that the employer was actually
aware of the protected expression at the time it took
adverse employment action.” Clover, 176 F.3d at 1354
(internal quotation omitted). “The defendant’s awareness
of the protected statement, however, may be established
by circumstantial evidence.” Id.
Here, the record does not indicate that Stephens knew
about any of Plaintiff’s complaints such that his decision to
discipline or terminate Plaintiff was based on that knowledge.
Stephens testified that he did not know Plaintiff ever verbally
complained to English (Stephens Dep. at 94:22-23), and that
he did not know that Plaintiff’s complaints to Brown were
about age discrimination (id. at 95:7-96:5). Shannon Brown
and English both testified that they did not tell Stephens
about Plaintiff’s complaints. (Shannon Brown Dep. at 22:1824, 67:14-19; English Dep. at 76:8-16).
Plaintiff responds to Defendant’s statement of fact
citing Shannon Brown’s deposition by arguing that a
jury could infer Brown’s testimony was false and that, in
actuality, he told Stephens of Plaintiff’s complaints to him.
(See Doc. 83-2 ¶ 31). This argument is a nonstarter and
mistakes the Court’s role at summary judgment, which
is not to weigh evidence or assess witness credibility.
See Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 256
(1986) (rejecting argument that “the defendant should
seldom if ever be granted summary judgment where his
state of mind is at issue and the jury might disbelieve
him or his witnesses” and noting that “the plaintiff must

103a
Appendix C
present affirmative evidence in order to defeat a properly
supported motion for summary judgment”); Clover, 176
F.3d at 1355 (declining to speculate that the decisionmaker knew of the plaintiff’s protected activity where
the individual to whom the plaintiff complained “could
conceivably have told [him] about [the plaintiff’s] protected
activity”); Frazier v. Burwell, Civil Action File No.
1:14-cv-3529-WBH-JKL, 2016 U.S. Dist. LEXIS 194817,
at *25 (N.D. Ga. July 15, 2016) (rejecting the plaintiff’s
argument that the Court must assume for purposes of
summary judgment that the decisionmakers were lying
in their depositions and affidavits), adopted by 2016 U.S.
Dist. LEXIS 194818 (N.D. Ga. Aug. 2, 2016). Plaintiff has
not pointed to affirmative evidence that Shannon Brown’s
deposition testimony should not be credited. Therefore,
the Court considers his testimony, along with the other
evidence of record, in determining whether Plaintiff has
created an issue of fact.10
Even so, Plaintiff argues that the temporal proximity
between his November termination and his May,
10. Plaintiff also asserts that it is the jury’s province to
determine whether “Shannon Brown told Stephens about [Plaintiff’s]
complaints of discrimination.” (Doc. 83 at 34). Plaintiff premises this
argument on “a consistent pattern within the lower federal courts
of Georgia of failing to apply the correct standard of review” by
substituting a judge’s reasoning for the determinations of a jury.
(Doc. 83 at 30-33). However, this argument fails to persuade the
Court because the Eleventh Circuit has dismissed similar arguments
in the past as meritless. See Zivojinovich v. Barner, 525 F.3d 1059,
1066 (11th Cir. 2008) (concluding that where summary judgment is
appropriate, no Seventh Amendment violation occurs).

104a
Appendix C
June, August, and November complaints establishes
circumstantial evidence that creates an issue of fact as
to whether Stephens knew of Plaintiff’s complaints. (Doc.
83 at 27-28). This argument also fails. Plaintiff argues
that “[b]ut for the 45-day performance period that the
Company forced [] Stephens to extend to the Plaintiff, the
termination would have taken place in early August.” (Id.
at 27). Indisputably, Plaintiff was terminated on November
3, 2016. (Pl. SMF ¶ 217), and the Court will not permit
Plaintiff to use a hypothetical date for his termination
to render his causation argument more plausible even
if Stephens had already begun contemplating the
termination at that time. As such, to the extent Plaintiff
complained of discriminatory or retaliatory conduct in
May, June, and August, those complaints—made three
months before his termination—are too temporally
remote to establish a reasonable inference that they were
causally related. See Higdon v. Jackson, 393 F.3d 1211,
1220 (11th Cir. 2004) (finding that a threemonth period
between protected activity and adverse action “does not
allow a reasonable inference of a causal relation”).
Plaintiff has also failed to establish an inference
that those complaints caused him to receive the adverse
action of the written discipline because the record
demonstrates that the disciplinary letters were issued
based on Plaintiff’s own discrete conduct. See Henderson
v. FedEx Express, 442 Fed. Appx. 502, 506 (11th Cir. 2011)
(unpublished decision) (“Intervening acts of misconduct
can break any causal link between the protected conduct
and the adverse employment action[.]”). For example,
Plaintiff allowed several PRISM tasks to lapse as late as

105a
Appendix C
eleven months despite already being told by Stephens that
he must be current on them, which was a topic of discussion
in Plaintiff’s June 2016 disciplinary letter. (Doc. 61-3 at 2;
Doc. 83-2 ¶¶ 51, 61, 64 (“Plaintiff DOES NOT DISPUTE
the date of the disciplinary letter or the number of late
PRISM items.”)). Plaintiff’s second written discipline,
issued in August 2016, was also issued on the basis of his
own undisputed conduct. (See Doc. 61-4 (citing Plaintiff’s
inaccurate travel reports, requisition for full-time position
despite being fully staffed, and inaccurately designating a
part-time requisition); Doc. 83-2 ¶ 76)). Finally, Plaintiff’s
November 2016 disciplinary letter, which eventuated his
termination, was based, inter alia, on Plaintiff’s conduct
surrounding the relocation of Baxter to Indianapolis, his
team’s use of TD delay codes after Stephens direction to
“eliminate[]” their use,11 and his failure to report a service
failure (Doc. 61-7; Doc. 83-2 ¶¶ 110). Finally, Plaintiff
testified that Stephens’s disciplinary letters “dealt with
items and things that occurred in [his] district” and
were “based on information out of FedEx’s computer
system[.]” (Pl. Dep. at 41:24-42:8). Simply put, the record
demonstrates that Stephens’s disciplinary letters to
Plaintiff were based on his objectively measured conduct.
In the absence of any evidence beyond temporal proximity
and in light of Plaintiff’s failure to meet Stephens’s
expectations at various points during his employment,
the Court observes no issue of fact regarding whether
the discipline letters were issued on non-retaliatory
bases. See Schoebel v. Am. Integrity Ins. Co. of Fla., No.
11. Plaintiff does not dispute that Stephens stated “I want
the use of TD delays eliminated,” but argues that Stephens’s really
meant to reduce their use over a period of time. (Doc. 83-2 ¶ 116).

106a
Appendix C
8:14-CV-426-T-27AEP, 2015 U.S. Dist. LEXIS 89868, at
*6 (M.D. Fla. July 10, 2015) (“Schoebel’s inappropriate
emails constitute intervening misconduct which severed
any causal connection which might otherwise be inferred
from the close temporal proximity of her FMLA leave and
termination.”).
Finally, even if Plaintiff were able to establish his
prima facie case of age or race retaliation, he fails to
create an issue of fact on whether Defendant’s proffered
reasons for the adverse actions were pretextual. Plaintiff’s
brief appears to offer the same circumstantial evidence
in support of pretext for retaliation as he does for his
discrimination claims. (See Doc. 83 at 7-29). As the
undersigned has already discussed at length, even viewing
all inferences in Plaintiff’s favor, the record simply fails
to rebut Defendant’s reasons for terminating Plaintiff, i.e.
that he failed to meet expectations regarding behavior
and performance despite having been issued multiple
disciplinary letters from three different VPs. (See Doc.
57-1 at 6-18).
For these reasons, it is RECOMMENDED that
Defendant’s motion for summary judgment as to Plaintiff’s
retaliation claims under section 1981 and the ADEA be
GRANTED.
II. Defendant’s Motion To Exclude Expert Testimony
(Doc. 90)
Defendant moves to exclude an expert report
proffered by Plaintiff and prepared by Lorene F.

107a
Appendix C
Schaefer (“Schaefer”), which challenges the adequacy
of Laszewski’s internal investigation of Plaintiff ’s
discrimination complaints. (See generally Doc. 90-25).
Schaefer’s report concludes with the following summary:
In short, the Company’s investigation fell far
short of being prompt, impartial and thorough
as required by the standard of care. To the
contrary, it was conducted by the very attorney
who had advised on the letters of discipline at
issue in what appears to have been an effort
to protect the Company and defendant the
manager’s actions. The investigating attorney
deliberately ignored the very type of inquiry
required in a claim of disparate treatment.
This type of biased investigation is evidence of
management’s unlawful intent.
(Id. at 12).
The undersigned has reviewed Schaefer’s report, and
assuming without deciding that testimony consistent with
the report were to be admissible, still it does not create
an issue of fact on any of Plaintiff’s claims. In particular,
Plaintiff’s ultimate conclusion concerning the report is
that a more thorough investigation “would have meant
any discipline issued by Stephens would have been much
more closely scrutinized.” (Doc. 83 at 13). Even after
having engaged in an “investigation of the investigation”
Plaintiff has still not proffered sufficient evidence to
create an issue of material fact concerning whether
the decision to terminate Plaintiff was the product of

108a
Appendix C
discrimination. Under these circumstances, in light of
the Court’s recommendation that Defendant’s motion
for summary judgment be granted as to all Plaintiff’s
claims, it is RECOMMENDED that Defendant’s Motion
To Exclude Testimony Of Lorene F. Schaefer, Esq. be
DENIED as moot without prejudice to Defendant’s
ability to renew the motion should the District Judge
decide not to adopt the undersigned’s recommendation
on summary judgment.
CONCLUSION
In light of the foregoing, it is RECOMMENDED that
Defendant’s Motion For Summary Judgment (Doc. 57) be
GRANTED and that Plaintiff’s claims be DISMISSED. It
is further RECOMMENDED that Defendant’s Motion To
Exclude Testimony Of Lorene F. Schaefer, Esq. (Doc. 90)
be DENIED as moot without prejudice to Defendant’s
opportunity to renew the motion should the District Judge
decide not to adopt the undersigned’s recommendation.
The Clerk is DIRECTED to terminate the referral of
this case to the undersigned Magistrate Judge.
IT IS SO REPORTED AND RECOMMENDED this
28th day of January, 2019.
/s/ J. Clay Fuller
J. Clay Fuller
United States Magistrate Judge

109a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT,
DATED SEPTEMBER 10, 2020
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11872-HH
RODDIE MELVIN,
Plaintiff-Appellant,
vs.
FEDERAL EXPRESS CORPORATION,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
O N PE T I T IO N(S) F O R R E H E A R I N G A N D
PETITION(S) FOR REHEARING EN BANC
BEFORE: ROSENBAUM, GRANT, and LUCK, Circuit
Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge
in regular active service on the Court having requested

110a
Appendix D
that the Court be polled on rehearing en banc. (FRAP 35)
The Petition for Rehearing En Banc is also treated as a
Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)
ORD-42

